<html>
<title> - SANCTUARY CITIES: A THREAT TO PUBLIC SAFETY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                           SANCTUARY CITIES: 
                       A THREAT TO PUBLIC SAFETY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2015

                               __________

                           Serial No. 114-36

                               __________

         Printed for the use of the Committee on the Judiciary

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://judiciary.house.gov
      
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-632 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-000    
      
      
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                  RAUL LABRADOR, Idaho, Vice-Chairman

LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE KING, Iowa                     LUIS V. GUTIERREZ, Illinois
KEN BUCK, Colorado                   SHEILA JACKSON LEE, Texas
JOHN RATCLIFFE, Texas                PEDRO R. PIERLUISI, Puerto Rico
DAVE TROTT, Michigan

                     George Fishman, Chief Counsel

                      Tom Jawetz, Minority Counsel
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                            C O N T E N T S

                              ----------                              

                             JULY 23, 2015

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Chairman, Subcommittee on 
  Immigration and Border Security................................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security................................     4
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary    28

                               WITNESSES

Jim Steinle, father of Kathryn Steinle, Pleasanton, CA
  Oral Testimony.................................................    37
  Prepared Statement.............................................    39
The Honorable Scott Jones, Sheriff, Sacramento County, CA
  Oral Testimony.................................................    42
  Prepared Statement.............................................    44
Jessica M. Vaughan, Director of Policy Studies, Center for 
  Immigration Studies, Washington, DC
  Oral Testimony.................................................    50
  Prepared Statement.............................................    52
Richard Biehl, Chief of Police, Dayton Police Department, Dayton, 
  OH
  Oral Testimony.................................................    59
  Prepared Statement.............................................    62

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................     6
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    31
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................    72
Additional Material submitted by the Honorable Zoe Lofgren, a 
  Representative in Congress from the State of California, and 
  Ranking Member, Subcommittee on Immigration and Border Sec92<greek-l>
                       deg.OFFICIAL HEARING RECORD
          Unprinted Material Submitted for the Hearing Record

Material submitted by the Honorable Zoe Lofgren, a Representative in 
    Congress from the State of California, and Ranking Member, 
    Subcommittee on Immigration and Border Security. See ``Rep. Lofgren 
    Submissions for the Record'' at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=103781.

 
                           SANCTUARY CITIES: 
                       A THREAT TO PUBLIC SAFETY

                              ----------                              


                        THURSDAY, JULY 23, 2015

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
room 2141, Rayburn Office Building, the Honorable Trey Gowdy 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Gowdy, Goodlatte, Smith, King, 
Labrador, Buck, Ratcliffe, Trott, Lofgren, Jackson Lee, and 
Gutierrez.
    Staff present: (Majority) George Fishman, Chief Counsel; 
Andrea Loving, Deputy Counsel; Graham Owens, Clerk; and 
(Minority) Rosalind Jackson, Professional Staff Member.
    Mr. Gowdy. We will now begin by welcoming everyone to this 
morning's hearing on ``Sanctuary Cities: a Threat To Public 
Safety.'' And I will recognize myself for an opening statement.
    I want to thank all of our witnesses for being here today, 
and I want to express, Mr. Steinle, to you my profound sympathy 
to you and to Kate's mother, to her brother, and all of your 
family, and those who cherished her, for the tragic loss of 
your beautiful daughter.
    The preeminent function of government is to provide for the 
safety and security of the law-abiding public. It is among the 
chief reasons we consent to be governed and bound by a 
collection of laws. We want those that we love to be protected, 
so we abide by the law in the hopes that others will feel 
similarly bound.
    What makes this Nation different is our respect for and 
adherence to the law because the law is the greatest unifying 
force in our culture, and it is the great equalizing force in 
our culture. In fact, we think so highly of the law that we 
make aspiring citizens take an oath that contains six separate 
references to the law.
    This system of laws failed Kate Steinle as it has failed 
others like her, and this is more than an academic discussion 
about prosecutorial discretion. It is more than political 
pandering to certain voting constituencies. It is more than the 
supremacy clause or the commandeering clause. It is quite 
literally life and death.
    And this is the real world where everyone is not a DREAMer, 
and everyone is not a valedictorian. There are criminals 
motivated by malice and a conscious disregard for the lives of 
others, and there are cities more interested in providing a 
sanctuary for those criminals than they are providing a 
sanctuary for their own law-abiding citizens.
    I have been on this Committee, Mr. Chairman, for almost 5 
years now, and I have listened closely to the debate over 
immigration. You do not hear many witnesses called by our 
colleagues on the other side to talk about law enforcement or 
background checks or enforcement mechanisms. You do hear 
certain phrases repeated with catatonic frequency as if rote 
repetition will somehow make it true.
    You hear phrases like ``functional control over the board'' 
uttered by witnesses who are uniquely well-positioned to know 
better. You hear citizenship for 11 million undocumented 
aspiring Americans as if 11 million of any category could pass 
a background check. You hear arguments against empowering State 
and local law enforcement to assist Federal authorities, and 
those are the most illogical arguments of all.
    We trust State and local law enforcement to investigate all 
manner of crime from murder, to sexual assault, to kidnapping, 
to narcotics trafficking, but God forbid they help us enforce 
immigration laws. State and local law enforcement are good 
enough to provide protection for Members of Congress in this 
city and when they are back home, but somehow, some way, all 
that changes when it comes to the issue of immigration. They 
are no longer smart enough to enforce Federal immigration law.
    And even though some do not trust State and local law 
enforcement to enforce Federal law, they are more than happy to 
allow State and local officials to openly ignore that same 
Federal immigration law, which brings us to that benign-
sounding phrase, ``sanctuary cities.'' The definition of 
``sanctuary'' is a place of refuge or safety. It almost sounds 
utopian, a place of refuge, a place of safety.
    Refuge for whom? Safety for whom? For a young woman walking 
on a pier with her father, or for a career recidivist like Juan 
Francisco Lopez-Sanchez, who had a quarter century's worth of 
lawlessness dating all the way back to 1991. He committed 
local, State, and Federal crimes in at least 5 separate States. 
He was deported 5 times, and each time had so little regard for 
the law that he reentered that border that we are supposed to 
have functional control over.
    His procedural history is every bit as disturbing. In May 
of 2011, this defendant was convicted and sentenced to 46 
months imprisonment for illegal reentry again. At the 
conclusion of that sentence, he was released from the Bureau of 
Prisons to a known sanctuary jurisdiction for the ostensible 
prosecution of an old drug case. And, of course, San Francisco 
did not prosecute that old drug case. They dismissed it, which 
surprises exactly no one.
    And then they released this defendant. They did not return 
him to the Bureau of Prisons or to Federal probation. They did 
not honor the detainer placed on him by ICE. They released 
someone they knew was not legally in this country and that had 
a criminal history dating back to the early 1990's.
    And we are given a litany of excuses for policies like 
this. We are told that we need policies like the one in San 
Francisco so people will cooperate with law enforcement. And I 
want you to consider how utterly illogical that is. We are 
releasing known criminals back into society so society will 
help us catch known criminals. And, of course, some of our 
friends on the other side say all of this is necessary so folks 
will, to use the President's word, ``come forward'' or ``get on 
the books,'' or ``get right with the law.''
    I want you to ask yourself, what in this defendant's 
background leads you to believe that he would ever come forward 
or get on the books or get right with the law? He was already 
on the books. Better than that, he was in jail, and he was 
there because he had not complied with a single damn thing we 
had asked him to do.
    So are we supposed to catch him again after San Francisco 
releases him? Do we wait on another victim? Is that the 
strategy behind sanctuary cities; release them and then wait 
until they victimize someone else? Is that what we mean by 
coming forward?
    The President and others constantly talk about 
comprehensive immigration reform, but they are very light on 
the details when it comes to enforcement and background checks. 
They just fundamentally fail to understand that border 
security, both borders by the way--both of them--and internal 
security are fundamental conditions precedent to fixing our 
broken immigration system.
    Mr. Steinle, about a year ago there was a precious little 
girl waiting on the steps of the Capitol for me after votes, 
and I knew what was coming, so I could not walk past her. I 
knew or suspected that she would repeat those phrases that so-
called advocates teach children to repeat to Members of 
Congress. But I had to stop as any father of a daughter would, 
and I stopped and the little girl said, I want to pray for you, 
one of the stuff that the advocates tell the children to say. 
She just said, I want to pray for you.
    So I picked her up, and in a mixture of Spanish and English 
she told God that she was not here legally, but she wanted to 
stay. And everyone that I know would want to help that little 
girl. But everyone also should have wanted to help your little 
girl, Mr. Steinle. She was not 5, but she is still your 
daughter, and this country should have protected her.
    And I hope you are given answers. I hope the politicians in 
San Francisco will explain to you why they thought it was more 
important to provide a sanctuary to Juan Francisco Lopez-
Sanchez than they did to provide a sanctuary for your daughter. 
And I hope this Administration will tell you why a Bureau of 
Prisons released a five-time illegal entrant to a known 
sanctuary city for a piddling damn drug charge that wound up 
being dismissed. And I hope San Francisco will tell you why 
they released a convicted felon rather than honor the detainer 
in place, or just simply return him to ICE. You deserve those 
answers, and you deserve to know that your daughter's sacrifice 
had meaning and purpose, and that her death will serve to save 
the lives of other people.
    When Trayvon Martin was shot and even before our criminal 
justice system had acted, the President said that could have 
been his son. For those of us that have daughters, which 
includes the President, your daughter could have been our 
daughter.
    I used to have a quote on the wall of my old office at the 
courthouse, and it was given to me by a victim advocate. It is 
from a Greek philosopher named Solon. I will paraphrase it, but 
this is pretty close. He was asked what city was the best one 
to live in, and he answered that city where those who are not 
injured by crime. Take up the cause of those who are as if it 
had been them.
    That is the kind of country we should want, too, one where 
we do not have to lose our daughters, to feel the pain that you 
feel. And we should not have to lose daughters to know that no 
one else should have to feel like you feel this morning.
    With that, I would recognize the Ranking Member.
    Ms. Lofgren. First, I would like to welcome all of the 
witnesses to the hearing today, but I especially want to 
welcome members of the Steinle family and to extend my 
heartfelt condolences to you. As a parent, I can only imagine 
what you are going through, and any time an innocent person is 
lost to violence, I think it is important that we all stop and 
consider what steps could we take, what policies and processes, 
procedures, and rules, and laws could be altered so that we 
would have a safer community, so that that tragedy would not 
occur.
    And so, it is important the process that we are going 
through at this time. A hearing like this offers Members and 
the public an opportunity to learn more about the issue, and I 
hope that we can work together collaboratively to address some 
of the problems we were sent here to Washington to solve.
    Now, I am eager to hear what each witness has to say. I 
must note that last night Chairman Goodlatte and I testified 
before the Rules Committee on H.R. 3009, a bill that has 
already been decided is the answer apparently to this. And I 
would note that if 3009 had been enacted into law, it would not 
have had any impact on these circumstances that resulted in the 
death of your daughter. In addition to that, major law 
enforcement associations, like the Fraternal Order of Police, 
the Major Counties Sheriffs Association, and others are telling 
us that that bill would actually make us less safe, and they 
all oppose that bill.
    I do think that the testimony of the police chief of 
Dayton, Ohio I hope will be instructive because I have not 
heard a single person who suggests that it was wise, 
appropriate, or even legal for the sheriff in San Francisco to 
have released the individual who is charged with killing your 
daughter. Having said that, there are police agencies around 
the United States who believe that it makes our communities 
less safe to inquire as to the immigration status in every 
case. For example, the domestic violence organizations have 
contacted us to say that if there is a call for a domestic 
violence situation and the individuals who are calling know 
that they and everyone in their household will be interrogated 
as to their status, a family where there is mixed status will 
not call for domestic violence. So we have to be mindful of 
those issues, the entirety of the situation that we face.
    I would ask unanimous consent to put into the record a 
bipartisan letter that was sent to appropriators just 4 months 
ago signed by 162 Members of Congress talking about the 
importance of the Byrne JAG and COPS grants for policing in 
this country.
    Mr. Gowdy. Without objection.
    Ms. Lofgren. And noting that it is those very grants that 
would be removed by the legislation that is before the Congress 
later today. And I would also ask unanimous consent to enter 
into the record letters in opposition to H.R. 3009 by the Major 
Counties Sheriffs' Association; the Fraternal Order of Police; 
the Law Enforcement Immigration Task Force; the League of 
Cities and the U.S. Conference of Mayors.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                               
                               __________
    Ms. Lofgren. With that, I would just say that I will listen 
with great interest to all of our witnesses, but especially to 
Mr. Steinle, and hopefully I will have a chance to meet you 
after this hearing and your family as well. As you know, 
Congresswoman Pelosi and I sent a letter to the Attorney 
General and the Department of Homeland Security just a few days 
ago to explore how could it be that you would send a person who 
should have been deported to a jurisdiction for a warrant that 
was 20 years old that clearly there was not going to be a 
prosecution.
    And oddly enough, I mean, this individual was deported in 
1994, in 1997, in 1998, in 2003. And in none of those instances 
did this ancient warrant prevent him from being deported. I 
mean, he was also convicted repeatedly of felony reentry after 
removal, and served 16 years in Federal prison for that crime, 
and he just kept trying to get in. And I want to give credit to 
our Border Patrol because every time he tried to come back in, 
they caught him, which is exactly what they should do, and he 
was prosecuted.
    So we need to examine all of this and knowing that none of 
it can bring your beautiful daughter back, but hopefully we 
will be able to improve the situation as really a tribute to 
your loss.
    And with that, I would yield back, Mr. Chairman.
    Mr. Gowdy. I thank the gentlelady from California. The 
Chair would now recognize the Chairman of the full Committee, 
the gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman, and thank you for 
holding this hearing and for the work that you have dedicated 
to this issue for the last 2 years.
    I want to thank all of our witnesses for being here today. 
I think you all have compelling testimony, but I especially 
want to thank Mr. Steinle, who I just had the opportunity to 
meet. I told him that the fact that he would come here 3 weeks 
after the tragic death of his daughter to me shows courage and 
determination to make sure that other lives are saved as a 
result of this. So you have my deepest sympathy, but also my 
deepest appreciation and admiration for coming here today. I 
also told Mr. Steinle that my son lives in San Francisco. I 
have been on that very pier with my son and my daughter, and we 
want to make sure that everybody is safe.
    Last week, this Committee held a Department of Homeland 
Security oversight hearing with Secretary Johnson as the sole 
witness. Many Members focused their questions on sanctuary 
cities, Immigration and Customs Enforcement detainers, and 
criminal aliens. So we have heard much of what the 
Administration has to say about these issues. But today we will 
hear perspectives on sanctuary policies that are distinctly 
different than what Secretary Johnson had to offer, and I look 
forward to that testimony.
    I am honored to have the family of Kate Steinle here and 
Mr. Steinle testifying. And, of course, their perspective on 
this issue is one that we wish they never had to contemplate. 
And the same is true for the countless other victims of 
criminal aliens that this Committee has heard from the past 
several years, people like Jamiel and Anita Shaw, whose son was 
murdered by a criminal alien gang member who has been released 
from jail by Los Angeles law enforcement pursuant to Los 
Angeles sanctuary policy. And people like Sabine Durden, whose 
son, Dominic, was killed in a car accident by an illegal 
immigrant who had two prior DUI convictions. Ms. Durden is here 
with us this morning, and I thank you very much for being here 
today as well.
    These tragedies were preventable. This Administration must 
reverse its wholesale and unprecedented shutdown of immigration 
enforcement. Because the result of that shutdown is that 
millions of unlawful and criminal aliens are not considered 
high enough priorities for deportation, they are left in 
American communities. In fact, in the last year, the number of 
administrative arrests of criminal aliens has fallen by a 
third, and the Department continues to release thousands of 
such aliens onto our streets. ICE admitted to releasing 30,558 
aliens with criminal convictions in 2014.
    Last week we publicized ICE data showing the recidivist 
activity of those criminal aliens ICE released in 2014. Already 
1,423 have been convicted of new crimes like vehicular 
homicide, domestic violence, sexual assault, DUI, burglary, and 
assault, among many others. And no doubt, even more have been 
arrested for, and charged with, additional crimes.
    Secretary Johnson's solution, the Priorities Enforcement 
Program, is a failure. Even the Secretary admitted last week 
that five of ICE's Priority A, meaning the worst offending 
jurisdictions, have refused to participate in PEP. And while 33 
of the 49 Priority A jurisdictions have apparently agreed to 
participate, it remains to be seen how fully they will 
participate. The Administration has admitted that when it says 
a jurisdiction has agreed to participate, that could encompass 
compliance with only a very small part of PEP.
    There is a clear answer to this problem: compliance with 
ICE detainers must be mandatory. Jurisdictions that violate 
that policy must suffer consequences. And, most importantly, 
Congress must no longer allow the President the ability to 
simply turn off the immigration enforcement switch.
    This Committee has passed a bill that addresses all three 
of those priorities, H.R. 1148, the ``Michael Davis, Jr. and 
Danny Oliver in Honor of State and Local Law Enforcement Act'' 
introduced by Chairman Gowdy. While I look forward to 
consideration of H.R. 1148 on the floor later today, the House 
will vote on legislation to address one part of the solution to 
sanctuary cities. That bill is a good first step, and I will 
support it. I also appreciate the Majority Leader's commitment 
to me that we will take additional action to ensure compliance 
with our immigration laws in the future.
    Today I look forward to hearing the witnesses' thoughts on 
how to prevent sanctuary policies and the overwhelming number 
of crimes committed pursuant to these policies. And I also want 
to acknowledge that Mrs. Wilkerson, I think, is here this 
morning as well. She testified before the Senate hearing on 
Tuesday.
    So I want to make it clear to everyone that this Committee 
is committed to addressing this problem in a comprehensive way, 
and we have taken the first step by bringing the bill to the 
floor today. But that should not be the end; that should be the 
beginning of our efforts to make sure that American citizens 
are safe in their cities around the country.
    Thank you, Mr. Chairman.
    Mr. Gowdy. The gentleman from Virginia yields back. The 
gentlelady from California is recognized briefly for a 
unanimous consent.
    Ms. Lofgren. Thank you, Mr. Chairman. I should have asked 
earlier for unanimous consent to enter Ranking Member Conyers' 
statement into the record. And I would also ask unanimous 
consent to enter into the record 137 statements, including from 
the Archbishop of San Francisco, Church World Services, the 
Methodists, and 134 other organizations on this subject.*
---------------------------------------------------------------------------
    *Note: The material referred to is not printed in this hearing 
record but is on file with the Subcommittee. Also, see ``Rep. Lofgren 
Submissions for the Record'' at:

      http://docs.house.gov/Committee/Calendar/
      ByEvent.aspx?EventID=103781.
    [The prepared statement of Mr. Conyers follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Gowdy. We welcome our very distinguished panel of 
witnesses today. I would ask you to all rise so I can 
administer an oath.
    Do you swear the testimony you are about to give shall be 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    [A chorus of ayes.]
    Mr. Gowdy. May the record reflect all the witnesses 
answered in the affirmative.
    I will introduce you en banc and then recognize you 
individually for your opening statement.
    From left to right, Mr. Jim Steinle of Pleasanton, 
California is the father of Kate Steinle who was murdered on 
July the 1, 2015 by a recidivist criminal alien who had been 
released from the San Francisco Sheriff's Department.
    Sheriff Scott Jones started with Sacramento County 
Sheriff's Department in 1989 as a security officer at their 
brand new main jail. As a deputy he worked in corrections 
patrol, legal affairs. He was promoted through the ranks to 
sergeant, lieutenant, and finally captain. As sheriff, he 
instituted an annual strategic planning process that 
prioritizes projects and continues to drive the department 
forward.
    He holds a bachelor's degree in criminal justice from CSU 
Sacramento and a juris doctor degree from Lincoln Law School.
    Ms. Jessica Vaughan currently serves as the director of 
policy studies for the Center for Immigration Studies. She has 
been with the Center since 1992 where she has experience in 
immigration policy and operations topics such as visa programs, 
immigration benefits, and immigration law enforcement. And, in 
addition, she is an instructor for senior law enforcement, 
training seminars at Northwestern University Center for Public 
Safety in Illinois.
    She has a master's degree from Georgetown and a bachelors 
in international studies at Washington College in Maryland.
    Finally, Chief Richard Biehl joined the Dayton Police 
Department as Director in Chief on January 28, 2008. He has 
more than 35 years of experience in law enforcement. He served 
on the Cincinnati Police Department from 1980 to 2004 in 
positions including officer, sergeant, lieutenant, captain, and 
ultimately assistant police chief.
    Welcome to all of you. Mr. Steinle, you are recognized for 
your opening remarks.

     TESTIMONY OF JIM STEINLE, FATHER OF KATHRYN STEINLE, 
                         PLEASANTON, CA

    Mr. Steinle. Thank you. First of all, I would like to thank 
the Members of this Committee for the honor to speak to you 
about our daughter, Kate. All children are special in their own 
way. Kate was special in the way she connected with people. We 
called it the ``Kate effect.''
    Kate was beautiful, she was kind, she was loving and deep 
in faith. Kate had a special soul, a kind heart, the most 
contagious laugh, and a smile that would light up a room. Kate 
loved to travel and spend time with her friends, and, most of 
all, spend time with her family. In fact, the day she was 
killed we were walking arm in arm on Pier 14 in San Francisco 
enjoying a wonderful day together. Suddenly a shot rang out, 
Kate fell, looked at me and said, ``Help me, Dad.'' Those were 
the last words I will ever hear from my daughter.
    The day Kate died, she changed her Facebook cover photo to 
a saying that said, ``Whatever is good for your soul, do 
that.'' This quote truly describes her spirit. After graduating 
from Cal Poly San Luis Obispo, she went to work for a title 
company and saved her money so she could travel the world. She 
traveled to Spain, Thailand, Amsterdam, Dubai, South Africa, 
just to name a few. She even made her way to the slums of 
Mumbai, India to reach out to her friend's mother's nanny. She 
spent time there with the woman's family and came home a 
changed person.
    Everywhere Kate went throughout the world she shined the 
light of a good citizen of the United States of America. 
Unfortunately, due to disjointed laws and basic incompetence on 
many levels, the U.S. has suffered a self-inflicted wound in 
the murder of our daughter by the hand of a person that should 
never have been on the streets of this country.
    I say this because the alleged murder is an undocumented 
immigrant who has been convicted of seven felonies in the U.S. 
and already deported five times. Yet in March of this year, he 
was released from jail to stay here freely because of legal 
loopholes.
    It is unbelievable to see so many innocent Americans have 
been killed by undocumented immigrant felons in recent years. 
In fact, we recently came across a statistic that says between 
2010 and 2014, 121 criminal aliens who had an active 
deportation case at the time of release were subsequently 
charged with homicide-related offenses. Think about that: 121 
times over 4 years an illegal immigrant, a violent illegal 
immigrant, with prior criminal convictions that later went on 
to be charged with murder when they should have been deported. 
That is one every 12 days.
    Our family realizes the complexities of immigration laws. 
However, we feel strongly that some legislation should be 
discussed, enacted, or changed to take these undocumented 
immigrant felons off our streets for good. We would be proud to 
see Kate's name associated with some of this new legislation. 
We feel that if Kate's law saves one daughter, one son, a 
father or mother, Kate's death will not be in vain.
    Thank you.
    [The prepared statement of Mr. Steinle follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
                               
    Mr. Gowdy. Thank you, Mr. Steinle.
    Sheriff Jones?

  TESTIMONY OF THE HONORABLE SCOTT JONES, SHERIFF, SACRAMENTO 
                           COUNTY, CA

    Sheriff Jones. Chairman Gowdy and Members, thank for you 
the invitation to speak with you this morning. I am Scott Jones 
and I am the Sheriff of Sacramento County, one of the largest 
sheriffs departments in the country. And in Sacramento County, 
like the rest of California and many communities, we have a 
very diverse population, including a large population of 
undocumented immigrants. They are a vital, important, and 
valued part of our community.
    Unfortunately, there is also a percentage of that community 
that chooses to victimize others as a way of life in sometimes 
heinous ways. Unfortunately, unlike their American 
counterparts, I cannot protect my community from these 
offenders.
    Secure Communities went a good way in the right direction 
by allowing fingerprints to be processed by ICE. Now, keep in 
mind we do not have access to their database, so we do not know 
status. But they did a good job of notifying their local ICE 
offices of the folks that they wanted to take custody of. 
Because they cannot be in every jail 24 hours a day, they 
served the jails with a detainer that says hold this person for 
a brief time until we get down to the jail and take custody of 
this person that we have already identified should not be 
released. It worked well, and few people fell through the 
cracks.
    Even under the new watered down version of Secure 
Communities, the Priority Enforcement Program, it is dependent 
on detainers to be functional. I can tell you that the detainer 
system has failed, and consequently and necessarily then the 
Priority Enforcement Program is also failing.
    Even notwithstanding the fact that the Federal Government 
allows and encourages States to pass their own immigration 
laws, though they have no legal authority to do so--it is a 
plenary and exclusive function of the Federal Government--they 
are allowed to so without consequence or challenge because it 
is much easier for that to happen. So we consequently have 50 
different immigration policies that are constantly evolving.
    The recent TRUST Act in California severely limited the 
types of crimes for which we can honor detainers. But then came 
a lowly magistrate judge in Clackamas County, Oregon who held 
that in Clackamas County only that detainers were unlawful. I 
and other sheriffs came back and talked with ICE administrators 
and begged, pleaded with them to stand with us so we could 
stand with our ICE partners to keep our communities safe and 
honor detainers at least for the ones that our State laws 
allowed because they already said they would not contravene 
that. They said, no, that it would not happen during this 
Administration.
    And in a leadership vacuum, someone will fill that space, 
and that someone was the ACLU who seized on the opportunity to 
send a letter to every sheriff in this country telling them 
that if they honored any ICE detainers, not just the ones that 
were allowed by State law, but any ICE detainers, they would be 
sued. Again, we pleaded with ICE to no avail. So now, over 200 
jurisdictions in this country do not honor ICE detainers. 
People are simply released without any scrutiny from ICE at 
all.
    California has become a de facto sanctuary State, and in 
short order this entire country will be a de facto sanctuary 
country. But that is not the same as sanctuary cities that pass 
laws that overtly and conspicuously violate Federal law. They, 
too, are allowed to do so. I have it on good authority that the 
San Francisco Sheriff's Office has not contacted ICE for any 
reason in over 3 years despite being served with many detainers 
during that time period. It is deplorable and reprehensible. 
And you will find no shortage of police chiefs willing to come 
here and testify that this type of legislation named after in 
part Danny Oliver, the deputy of mine that got killed last 
October 24th by someone removed 4 times, that it is going to be 
bad for our communities, that it is going to erode trust in our 
immigrant communities, that we should not be enforcing 
immigration law. It should be a function of the Federal 
Government. And I cannot argue with any of that. I agree with 
every little sentiment that is expressed.
    I do not care. I do not have any desire to enforce 
immigration law, but that presupposes that there are people 
that are concerned with enforcing immigration law, and that is 
not happening. And notice I mentioned police chiefs willing to 
come here and testify. I defy you to find a sheriff that will 
come here and testify that some of this legislation is not a 
good idea, because while we are both singularly concerned with 
building trust in our communities, only the sheriffs, because 
of their roles in corrections in this country, are concerned 
with the dire consequence of releasing someone they know who 
should not be released, that they know ICE already wants and 
that society should be protected from, and not to be able to 
hold them for even 1 minute while ICE can come down to the jail 
and take custody of them.
    Sheriffs are accountable to the people. They are elected. 
We have our own political voice. There is a reason, a very 
conspicuous reason. Even though our large role in corrections 
in this country that there is no sheriff representation on the 
President's 21st Century Task Force on Policing. And that is 
it.
    Even without national immigration reform, there can be 
solutions. There can be legislative or stroke of pen changes by 
policy that will make this part better, to make detainers 
lawful and mandatory on local detention facilities so we can 
cooperate with our ICE partners despite what the policymakers 
in Washington have.
    I hope you have had an opportunity to review the 
information that I have presented prior to this hearing. It 
lists some of those suggestions. I remain deeply committed to 
assisting in whatever way I can in this issue, and I look 
forward to exploring any of those issues further through any of 
your questions you may have. Thank you.
    [The prepared statement of Sheriff Jones follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Gowdy. Thank you, Sheriff.
    Ms. Vaughan?

 TESTIMONY OF JESSICA M. VAUGHAN, DIRECTOR OF POLICY STUDIES, 
         CENTER FOR IMMIGRATION STUDIES, WASHINGTON, DC

    Ms. Vaughan. Thank you very much for the opportunity to 
testify on the public safety problems created when local 
governments adopt policies that obstruct immigration 
enforcement, commonly known as sanctuary policies.
    According to an ICE report that I obtained through a FOIA 
request, as of October 2014, there were 276 such jurisdictions 
in the United States. Over an 8-month period in 2014, more than 
8,100 criminal aliens who were the subject of detainers were 
instead released back into the streets as a result of these 
non-cooperation policies. Approximately two-thirds of these 
individuals already had a serious criminal history as defined 
by ICE as the time of their release. Nearly 1,900 of them 
subsequently reoffended just in that 8-month period. Only 28 
percent of them have been re-apprehended by ICE.
    Now, I have just reeled a lot of statistics that I know 
sometimes make some people's eyes glaze over, but as someone 
who also has lost a close family member--my brother--because of 
a negligent act by a sworn law enforcement officer and also a 
bad policy--and I should add that the offense that was 
committed was one that some on this Committee would call a 
minor traffic offense that killed my brother--I have to say 
that it is really not okay to refer to these tragedies as a 
little thing, as one Member of this Committee has.
    I have a friend. Her name is Heather. A few years ago she 
was carjacked at knife point and taken to Roger Williams Park 
in Providence, Rhode Island and raped repeatedly by an illegal 
alien who had been in the custody of the Providence Police 
Department more than once, but was released because of then 
Mayor Cicilline's sanctuary policies. This was not a little 
thing.
    I have other friends, some in this room, who can tell 
similar stories, and I am afraid that Congress is about to try 
to get away with doing just a little thing just by barring 
funding from these sanctuary jurisdictions, some funding. And I 
am asking you today to not be satisfied with just doing a 
little thing. This big problem requires you to have the courage 
to do a bigger thing. You have the language in the Davis-Oliver 
Act. Please do this for these families who have lost so much.
    Sanctuary policies do nothing to build trust between 
immigrant communities and local law enforcement. They do not 
improve access to law enforcement services for immigrants, nor 
have they been shown to increase the likelihood that more 
immigrant crime victims will report crimes. On the contrary, 
they destroy the trust of the community at large that the laws 
will be faithfully enforced to preserve the quality of life for 
all.
    Despite the widespread public outrage at the San Francisco 
sheriff's policies that caused the release of a man who went on 
to kill Kathryn Steinle, it is clear that some jurisdictions 
will not budge from their criminal alien sanctuary policies. To 
make matters worse, the Obama administration's new Priority 
Enforcement Program explicitly allows local jurisdictions to 
obstruct ICE, and also establishes the entire country as a 
sanctuary for nearly all illegal aliens by further narrowing 
enforcement priorities and severely restricting the ability of 
ICE officers to deport removable aliens, including many with 
criminal records.
    Therefore, Congress must step in to correct the situation 
by clarifying in the law that local law enforcement agencies 
are expected to comply with ICE detainers; establishing that 
local law enforcement agencies will have qualified immunity 
when cooperating in good faith; by implementing sanctions for 
those sanctuary jurisdictions that continue to refuse to 
cooperate; and by reversing the Obama administration's non-
enforcement policies.
    Thank you very much.
    [The prepared statement of Ms. Vaughan follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Gowdy. Thank you, Ms. Vaughan.
    Chief Biehl?

         TESTIMONY OF RICHARD BIEHL, CHIEF OF POLICE, 
              DAYTON POLICE DEPARTMENT, DAYTON, OH

    Chief Biehl. Chairman Gowdy, Ranking Member Lofgren, and 
Members of the Committee, thank you for the opportunity to 
appear before you today to provide testimony on this important 
issue.
    I am Richard Biehl, the director and chief of police of 
Dayton, Ohio Police Department. I have had the honor of serving 
in this position since January 28th of 2008. Further, I have 
spent the last 35 years working to improve public safety in 
urban areas. Through that experience, I know that effective 
public safety, even when grounded in evidence-based best 
practices, is crucially dependent upon community engagement and 
support.
    First, I would like to express my condolences to the 
Steinle family for their loss and to Sheriff Jones for the loss 
of his officer last year. Sadly, I attended the funeral of 
Cincinnati Police Officer Sonny Kim less than a month ago 
killed in the line of duty. He was my 9th in my career.
    I happened to read a Proverb a couple of days ago, and I 
think it is quite appropriate to the conversation today. ``Our 
passions are the winds that propel our vessel. Our reason is 
the pilot that steers her. Without winds, the vessel would not 
move; without a pilot she would be lost.''
    I know we are here to discuss the topic of sanctuary cities 
and the role in public safety. As we have the conversation 
about sanctuary cities, the specifics of how we define them are 
important, and as we think about how to best protect the 
residents and keep our communities safe, it is crucial that we 
do not undermine proven community policing practices.
    First, I would like to explain Dayton's policy regarding 
cooperation with Federal immigration enforcement efforts. Our 
policy states that the Dayton Police Department shall not stop, 
investigate, or arrest a person solely because of their real or 
perceived immigration status. Investigation of a person's 
immigration status must be done only for the most serious 
offenders. This approach has served the Dayton community well. 
During the time these policies have been in place, Dayton has 
experienced significant reductions in crime. This is an 
important point I want to convey to you all.
    As chief of police, my primary concern is with the safety 
all residents, and in Dayton we have seen a reduction in crime 
in our city. Our immigration law enforcement approach allows us 
to focus on true threats to public safety while ensuring that 
our immigrant communities maintain necessary trust to report 
criminal incidents to our Department.
    I am concerned that proposed legislation, such as H.R. 
3009, would coerce local law enforcement departments to make 
decisions that undermine our ability to keep our community 
safe. The Dayton Police Department, like many agencies 
throughout the State of Ohio, is facing critical staffing 
shortages that are already creating potential challenges for 
fulfilling its public safety responsibilities. Making local 
police departments fulfill immigrant enforcement 
responsibilities will only make it even more challenging.
    I have seen the positive effects of community policing in 
my city. Dayton as a population is only 4 percent foreign born. 
Given its demographics, it may appear an unlikely place for a 
national immigration policy to be of much concern, much less an 
issue impacting local policing. But in my time as police chief, 
I have repeatedly witnessed how significant the issue is to our 
community.
    Within a month of beginning my service as Dayton Police 
Chief, I was approached by multiple community advocates who 
expressed concerns that the Latino community members were being 
racially profiled. Allegations like this are deeply troubling 
to me. Our cities are safer when there is a sense of trust with 
our communities, including our immigrant communities. If 
families view law enforcement as a threat, or are fearful of 
dropping off their kids off at school, or walking around their 
neighborhood, no one benefits.
    As I stated earlier, Dayton has seen a reduction in crime, 
not an increase, as a result of our community policing 
policies, such as investigating persons of immigration status 
only for the most serious offenses. I might add that we have 
bene recognized Statewide, nationally, and internationally for 
excellence in problem-only policing and community-oriented 
policing.
    While immigration enforcement is a Federal responsibility, 
collaboration between State and local law enforcement and 
Federal immigration enforcement official can and should exist; 
but policies need to be clearly tailored to ensure community 
policing is not undermined. I agree we should deport serious 
violent offenders. No one wants violent crime in their 
community, because once we get beyond violent offenders that 
some localities and municipalities disagree over collaboration 
with Federal immigration enforcement officials.
    I support the new Priority Enforcement Program initiative 
as the U.S. Department of Homeland Security has described it. 
PEP allows local jurisdictions to work with ICE to implement 
priorities concerning crimes that most negatively impact public 
safety in their communities.
    I believe local law enforcement should comply with 
notifications as well as detainers as long as the detainers do 
not require jurisdictions to exceed their legal authority to 
hold persons beyond their current sentence and local charges. 
Requiring local law enforcement to hold persons for additional 
time must be supported by a legal basis; otherwise, it would 
ask local law enforcement to violate the U.S. Constitution, 
something none of us wants.
    Before Congress tries to impose a legislative solution, I 
believe it should first allow PEP to be implemented. What 
everybody wants is a safe community. That is what I want, and 
that is what community members care about. We should not punish 
localities who are trying to promote trust in their 
communities. Collaboration with Federal immigration officials 
should exist for those serious and violent of criminals. That 
collaboration needs to be carefully tailored to address the 
priorities of local communities while ensuring community 
policing is not undermined, such as through the PEP Program.
    A long-term solution requires Congress to come up with a 
fix for a broken immigration system and clarify immigration 
enforcement responsibilities. Until that time, local community 
leaders will continue to implement practical solutions to 
promote public safety in our communities.
    Thank you again for the opportunity to testify today. I am 
happy to answer any questions that you may have.
    [The prepared statement of Chief Biehl follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Gowdy. Thank you, Chief, and thank all our witnesses.
    The Chair will now recognize the gentleman from Idaho, Mr. 
Labrador, for his questions.
    Mr. Labrador. Thank you all for being here. Sheriff Jones, 
in your written testimony you provide some suggestions for 
fixing our immediate problems between ICE and local law 
enforcement, including making detainers mandatory in local 
jails and having ICE share resources with localities to ensure 
effective enforcement. In your view, given the current 
politicized status of ICE's policies, what can be done to 
compel ICE to provide these resources to States and localities?
    Sheriff Jones. Well, thank you for the question. It is 
important to remember that until a couple of years ago, ICE 
detainers were mandatory. There was nothing equivocal in the 
enabling statute. It says ``local jails shall,'' not ``may'' or 
``in their discretion,'' but ``shall'' hold folks for no more 
than 48 hours. It is only through policies of this 
Administration that that has softened up.
    About 3 years ago, they were mandatory. For about a year or 
2-year period, the Federal Government literally would refuse to 
answer whether they are mandatory or mere requests, and now, of 
course, they have simply thrown up their hands and said, well, 
look at Clackamas. I guess that is Federal law. Well, that is 
not the way our American system of jurisprudence works.
    Mr. Labrador. Okay. Can you explain that to the American 
people? It is one judge in one jurisdiction does not make the 
law for the United States.
    Sheriff Jones. It is not even a judge.
    Mr. Labrador. It is a magistrate.
    Sheriff Jones. It is a magistrate.
    Mr. Labrador. They are judges----
    Sheriff Jones. I guess.
    Mr. Labrador. Yes.
    Sheriff Jones. They still have a longer appointment than I 
do, so.
    Mr. Labrador. Yes.
    Sheriff Jones. So it is applicable in that particular 
district, nowhere else. And so, the Federal Government could 
have done something minimally such as stand up and say we do 
not agree with that, let alone challenge it, but they do not. 
They allow that to extrapolate to make national policy, and the 
ACLU seized upon that vacuum to do so.
    So it is not like it is unprecedented that detainers are 
mandatory. They have been mandatory, and that was the success 
of the Secure Communities Program.
    Mr. Labrador. So what can be done now? You see this 
Administration not doing their job. What----
    Sheriff Jones. Well, there are a number or things, but 
specifically relative to detainers, they have to be once again 
determined to be mandatory. The fact that you cannot hold 
someone based on anything less than a warrant or a court order 
is ludicrous. We arrest everyone in this country, citizens or 
not, we detain them on reasonable suspicion. We arrest them on 
probable cause. They do not see a judge for 48 hours or 2 days 
or 3 days. So to suggest that because you are undocumented you 
somehow have greater constitutional rights, that----
    Mr. Labrador. American citizens.
    Sheriff Jones [continuing]. Is ludicrous. You cannot----
    Mr. Labrador. It is. Okay. Thank you very much. Chief 
Biehl, thank you for the work that you do in your community, 
but I do have some questions for you. Your testimony discusses 
the need for comprehensive immigration reform to help law 
enforcement know who is present in the community. But is it not 
true that Kate Steinle's killer was previously in the custody 
of San Francisco law enforcement officials, and, thus, was 
already known by the San Francisco law enforcement?
    Chief Biehl. That is a fact.
    Mr. Labrador. Your written testimony contains a quote from 
an email by community advocates you received regarding alleged 
racial profiling in Dayton. Were any of the allegations in the 
email substantiated?
    Chief Biehl. They were not substantiated through 
investigation. I will say that in terms of arrest data, there 
was clearly a surge of arrests of Hispanics and Latinos that 
occurred 1 year prior to my arrival that was substantial. So 
whether the actual basis of those allegations----
    Mr. Labrador. Were any of these arrests taken out because 
there was insufficient data about their criminality?
    Chief Biehl. That is my understanding.
    Mr. Labrador. Were any of these arrests dismissed, or were 
they not prosecuted because of racial profiling?
    Chief Biehl. Yes, a number of them were--I am sorry.
    Mr. Labrador. Because of racial profiling?
    Chief Biehl. No, not because of racial profiling. A number 
were dismissed, though.
    Mr. Labrador. But not because of racial profiling.
    Chief Biehl. No.
    Mr. Labrador. Okay. Your testimony notes that your 
department is focused on serious chronic and high rate 
offenders. Would it not make sense to protect residents of 
Dayton by working with Federal immigration agencies to enforce 
laws so that aliens never have the opportunity to commit so 
many crimes as to be considered serious, chronic, and high rate 
offenders?
    Chief Biehl. Actually we do work with Federal immigration 
authorities. In fact, we have partnerships with the Federal 
Bureau of Investigation, the Drug Enforcement Administration, 
United States Marshals Fugitive Task Force, Department of 
Homeland Security, including individuals who have homeland 
security investigation credentials, even the Trafficking and 
Steering Committee, and also the United States Secret Service. 
So we have partnerships across Federal law enforcement 
agencies.
    Mr. Labrador. And you think that is a good thing, right?
    Chief Biehl. Absolutely. That is why we do it.
    Mr. Labrador. Do you comply with ICE detainers?
    Chief Biehl. Actually they are complied with in my county.
    Mr. Labrador. Excellent. And would you have complied with 
an ICE detainer in the case of Juan Francisco Lopez-Sanchez, a 
seven-time convicted felon who has been deported by the U.S. 
five times?
    Chief Biehl. Absolutely.
    Mr. Labrador. Absolutely. Your recent opposition to 
allowing State and local law enforcement officers to help 
enforce Federal immigration law include that immigration law 
include that immigration laws are very complex. I do not know 
that immigration laws are any more complex than other criminal 
laws. Why do you not think that your officers are smart enough 
to be able to act as a force multiplier for Federal immigration 
enforcement?
    Chief Biehl. Thank you for that question, Congressman. My 
understanding for individuals to be credentialed on a 287 
requires 3 weeks of training. That is a substantial commitment 
of training time for police officers for a very specific area 
of enforcement. I cannot think of any agencies that could spend 
that amount of time with personnel and training.
    There are training requirements now being proposed through 
the State of Ohio. There have been a number of tasks forces 
established--the 21st Century Task Force on Policing, the 
Presidential Task Force--that are once again emphasizing the 
need for additional training for law enforcement. I can tell 
you training time is at an absolute premium specifically as it 
relates to critical staffing levels. So how do we spend time 
training police officers?
    And just from talking from individuals who are in this area 
of law, the law is constantly changing, so 3 weeks of training 
is only valuable as long as the laws do not change.
    Mr. Labrador. Thank you. I yield back my time.
    Mr. Gowdy. The gentleman from Idaho yields back. The 
gentlelady from California.
    Ms. Lofgren. Thank you, Mr. Chairman. First, I appreciated 
hearing from all the witnesses. Sheriff Jones, you mentioned 
that no sheriff would come and take the position of Chief 
Biehl. I would like to ask unanimous consent to put into the 
record a letter from the Law Enforcement Immigration Task Force 
opposing H.R. 3009 signed by a number of law enforcement 
officials, including Sheriff Mark Curran from Illinois, Sheriff 
Tony Estrada from Arizona, Sheriff Leon Lott from South 
Carolina, Sheriff William McCarthy from Iowa, Sheriff Margaret 
Mims from Fresno, and Sheriff Lupe Valdez from Texas.**
---------------------------------------------------------------------------
    **Note: The material referred to was previously submitted. See page 
22.
---------------------------------------------------------------------------
    Mr. Gowdy. Without objection.
    Ms. Lofgren. Also I would like to ask unanimous consent to 
place in the record a letter from the Major County Sheriffs' 
Association opposing the idea of removing grant funding as a 
mechanism to enforce anything.***
---------------------------------------------------------------------------
    ***Note: The material referred to was previously submitted. See 
page 18.
---------------------------------------------------------------------------
    Mr. Gowdy. Without objection.
    Ms. Lofgren. You know, as we seek efforts to make our 
communities safer, we do not want to make it more dangerous. 
And, Chief Biehl, your testimony I thought was very 
interesting. In your op-ed recently you said that crime in 
Dayton dropped by nearly 22 percent after you engaged in your 
new community policing effort, and that serious property crime 
dropped almost 15 percent.
    Now, why do you think this happened? Was it community 
trust? And have these favorable crime reduction figures 
continued or not?
    Chief Biehl. Thank you, Congresswoman. In fact, they are a 
direct outgrowth of not only innovative policing strategies, 
but also community partnerships. Our community working with us 
to address crime and particularly serious violent crime has 
been crucial in reducing crime in Dayton as crime trends have 
continued through my tenure as police chief.
    Ms. Lofgren. Now, again, there has been a lot of discussion 
about detention and whether that is constitutional and citing 
one particular case. However, there are a number of cases, and 
rather than go into all of them here, I would ask unanimous 
consent to place a summary of a series of cases, Federal cases, 
that have found that you cannot hold somebody on a civil matter 
at the request of ICE absent a warrant or something else.
    [The information referred to follows:]
           Federal Court Decisions Invalidating ICE Detainers
Morales v. Chadbourne, 996 F. Supp. 2d 19, 29, 32-34 (D. R.I. 2014) 
(holding that plaintiff stated a Fourth Amendment claim where she was 
held for 24 hours on an ICE detainer issued without probable cause), 
affirmed, Morales v. Chadbourne, --F.3d --, 2015 WL 4385945, *4-*8 (1st 
Cir. July 17, 2015) (slip op.) (holding that ICE agent could be held 
liable for detention because it was clearly established in 2009 that 
ICE detainers must be based upon probable cause).

Galarza v. Szalczyk, No. 10-6815, 2012 WL 1080020, at *10, *13 (E.D. 
Pa. Mar. 30, 2012) (unpub.) (holding that where plaintiff was held for 
3 days after posting bail based on an ICE detainer, he stated a Fourth 
Amendment claim against both federal and local defendants; it was 
clearly established that the ``detainer caused a seizure'' that must be 
supported by ``probable cause''), rev'd on other grounds, Galarza v. 
Szalczyk, 745 F.3d 634 (3d Cir. 2014) (holding that the County 
operating the jail, too, may be liable for violating the Fourth 
Amendment).

Mendoza v. Osterberg, No. 13-65, 2014 WL 3784141, at *6 (D. Neb. July 
31, 2014) (unpub.) (recognizing that ``[t]he Fourth Amendment applies 
to all seizures of the person,'' and thus, ``[i]n order to issue a 
detainer[,] there must be probable cause'') (internal quotation marks, 
ellipses, and citations omitted).

Villars v. Kubiatowski, 45 F.Supp.3d 791, 808 (N.D. Ill. 2014) (holding 
that plaintiff stated a Fourth Amendment claim where he was held on an 
ICE detainer that ``lacked probable cause'').

Miranda-Olivares v. Clackamas Cnty., --F.Supp.2d ---, No. 12-02317, 
2014 WL 1414305, at *10 (D. Or. Apr. 11, 2014) (slip op.) (holding that 
plaintiff's detention on an ICE detainer after she would otherwise have 
been released ``constituted a new arrest, and must be analyzed under 
the Fourth Amendment'').

Uroza v. Salt Lake County, No. 11-713, 2013 WL 653968, at *5-6 (D. Ut. 
Feb. 21, 2013) (unpub.) (holding that plaintiff stated a Fourth 
Amendment claim where ICE issued his detainer without probable cause; 
finding it clearly established that ``immigration enforcement agents 
need probable cause to arrest . . . [and] detainees who post bail 
should be set free in the absence of probable cause to detain them 
again'').

Vohra v. United States, No. 04-0972, 2010 U.S. Dist. LEXIS 34363, *25 
(C.D. Cal. Feb. 4, 2010) (magistrate's report and recommendation) 
(``Plaintiff was kept in formal detention for at least several hours 
longer due to the ICE detainer. In plain terms, he was subjected to the 
functional equivalent of a warrantless arrest'' to which the 
```probable cause' standard . . . applies''), adopted, 2010 U.S. Dist. 
LEXIS 34088 (C.D. Cal. Mar. 29, 2010) (unpub.).

Ortega v. ICE, 737 F.3d 435, 439, 441 (6th Cir. 2013) (dismissing 
plaintiff's due process claims against individual officers based on 
qualified immunity, but clarifying for future cases that 
``transfer[ring] [a prisoner] from home confinement to prison 
confinement'' based on an ICE detainer ``amounts to a sufficiently 
severe change in conditions to implicate due process''; dismissing 
plaintiff's Fourth Amendment claim because it was not clearly 
established in 2011 whether ``moving a convict from home confinement to 
prison confinement'' based on an ICE detainer ``resulted in a new 
seizure within the meaning of the Fourth Amendment.'').

Mendia v. Garcia, 768 F.3d 1009, 1013 (9th Cir. 2014) (where plaintiff 
alleged that ICE caused his extended detention by issuing an ICE 
detainer that precluded him from posting bail, his injury was traceable 
to ICE for purposes of establishing standing to sue for damages).
                               __________

    Ms. Lofgren. And I think that is why sheriffs all across 
the United States, whether or not their communities say they 
are ``sanctuary cities,'' have been reluctant to do this. And 
that is why the Administration has gone to this Priority 
Enforcement Program because it does not violate anybody's 
constitutional rights if you ask to be notified before you 
release somebody.
    And what we have heard from ICE is if you have got a 
serious character like this guy in San Francisco, they will get 
there, and they will pick him up, and they will take him away 
and deport him, which is what should have happened in this 
case. Actually he should never have been sent to San Francisco 
in the first place.
    I am wondering whether you have any objection, Chief Biehl, 
or whether your community would have any objection to the 
Priority Enforcement Program that requires notification so that 
ICE can come and remove people who are priorities for 
enforcement, who are serious criminals.
    Chief Biehl. I am not aware of any objection from my 
community with that program at all. None have been expressed to 
me. I have been involved in the Committee conversations, the 
task force conversations for the development of some of the 
mechanisms and notification and also for, you know, basically 
be involved in the roll out. I mean, it is just literally being 
rolled out as we speak.
    I just met with our local field office director last week, 
who actually gave me a packet describing the program and its 
implementation. So this is literally just being implemented.
    Ms. Lofgren. I would note also, and I see that my time is 
almost expiring, that when someone is booked into a jail, their 
fingerprints are taken. And those fingerprints, I mean, of 
everyone.
    Chief Biehl. Correct.
    Ms. Lofgren. Immigrants, undocumented, legal, American 
citizens. Those fingerprints are shared with the Federal 
Government and made part of the database. And that has not been 
changed at all, has it, Sheriff? No. And I do not think there 
is any confusion that that interferes with community policing 
or building trust with the community. Have you heard that?
    Chief Biehl. Not at all.
    Ms. Lofgren. Mr. Chairman, I am hopeful that we can hone in 
on the need to make sure that the ability to remove dangerous 
criminals by ICE is enhanced, and that we do not get diverted 
by disagreements over overall immigration policy because I 
believe that we can have the ability to come together to reach 
consensus in a way that would be a very positive outcome.
    And with that, my time has expired, and I yield back.
    Mr. Goodlatte [presiding]. The Chair thanks the gentlewoman 
and recognizes himself for his questions. And let me just say 
that there are 5,000 ICE agents in the country responsible for 
enforcing our immigration laws, which we know there are 350,000 
convicted criminal illegal aliens on the streets right now. 
There are 11 million or more people who are unlawfully present 
in the United States. And that when you have over 900,000 local 
law enforcement officers, some communities may want to 
participate, some may not. We do not require them to enforce 
our immigration laws.
    But the people who are unlawfully present in the United 
States and cause various types of problems, including 
committing crimes, are a concern to not just the national 
government, to local governments as well. So I think the first 
step is to see that our laws are enforced by the Federal 
Government, and I do not believe they are, and by State and 
local governments. And I think that beyond that, legislation is 
needed to address many aspects of our immigration policy.
    Let me ask Mr. Steinle and then Sheriff Jones to talk a 
little bit more about the personal experiences that they have. 
Mr. Steinle, do you believe that San Francisco should have been 
required to honor ICE detainers?
    Mr. Steinle. Well, absolutely.
    Mr. Goodlatte. And do you agree that the U.S. immigration 
and enforcement policy should not be to the detriment of U.S. 
citizens and legal lawful resident immigrants?
    Mr. Steinle. Yes.
    Mr. Goodlatte. So would it not be best to remove unlawful 
aliens before they commit serious crimes as opposed to simply 
trusting and hoping that they will not, in fact, commit serious 
crimes? In the case of Mr. Lopez-Sanchez, he had committed some 
drug offenses, and he had committed the offense of illegally 
entering the United States. He had not committed murder at that 
point in time. But this whole debate about how serious a crime 
you have to commit before you can be subject to the enforcement 
of the laws which apply to everybody gets to be problematic, 
does it not?
    Mr. Steinle. Well, Mr. Chairman, if I may, our intent with 
Kate's law is to get rid of or do something with the violent 
felons. The way I understand the law is if any undocumented 
person comes into the United States and subsequently is 
deported, then comes back into the United States, they are a 
felon.
    Mr. Goodlatte. That is correct, and they do not have to 
have committed any other crime. They are a felon at that point 
in time.
    Mr. Steinle. They are a felon at that point.
    Mr. Goodlatte. And Kate's law would impose a mandatory 
minimum sentence.
    Mr. Steinle. But where I see that we have to hone in on is 
a felon is not a felon is a felon. We are talking about violent 
felons that come in here to the United States. If we try to 
arrest every felon, the jails would be full, and the officers 
here would be extremely busy. I think we need to differentiate 
somehow or another the levels of felonies, and that is another 
can of worms. I understand that. But do you see that as a----
    Mr. Goodlatte. But if you have cooperation between local 
law enforcement and the Federal Government, with limited 
resources they do have to set priorities, but they will set 
those priorities based on the best information, not based 
upon----
    Mr. Steinle. I understand.
    Mr. Goodlatte [continuing]. Individual localities trying to 
set their own immigration policies.
    Mr. Steinle. Sure, I understand.
    Mr. Goodlatte. Sheriff Jones, would you tell us about 
Deputy Danny Oliver, his life, and what kind of person, deputy 
he was, and the circumstances of his murder?
    Sheriff Jones. Yes, thank you. He was not unlike any cop in 
this country who has answered the call, who law enforcement is 
a calling, not a job, to help people, and for a life of 
service. He was particularly assigned to the Problem-Oriented 
Policing Unit, or ``POP officers'' might be more familiar. They 
are what I call the quality of life police. Their job is to 
address quality of life issues, not answer calls for service.
    It is what he was doing on that date with a particular 
problem motel in our jurisdiction, had already made contact 
with someone in the front, and was onto the back of the hotel 
when he came in contact with two people in a car. And I believe 
the last words he ever spoke was ``How is your day going 
today,'' and then he was shot a single time in the forehead 
killing him almost instantly.
    Mr. Goodlatte. Are there changes to immigration enforcement 
that could have prevented Deputy Oliver and Investigator Davis' 
murders?
    Sheriff Jones. First of all, he was booked in under an 
alias that we did not even know his true identity for several 
days. Secondly, we realized that he had a driver's license that 
was issued from one of the States that issue them. Now 
California does as well. Had suffered 11 different misdemeanor 
traffic-related convictions from hit and run to DUI. Was able 
to walk in and renew his driver's license.
    And he had been removed from the country four times, the 
first time with a deportation. The second time the next year he 
was simply released back across the border the very same day he 
was captured, 3 days later was back in this country. Once 
again, released across the border that very same day, and the 
next year came into this country illegally. Was arrested on 
felony warrants for a local crime, was deported again 3 days 
later. So not only escaping consequences for any of his 
deportations or prior illegal entry, but in the last case at 
least escaped any consequences for his local criminality 
because presumably it was easier to deport him than face his 
criminal conduct.
    Some time thereafter, I know not when, he entered the 
country illegally, and fast forward to the events of October 
24th of last year.
    Mr. Goodlatte. Thank you. One last question. Ms. Vaughan, 
what are your thoughts when you hear sanctuary cities 
proponents state that unlawful aliens are no more likely to 
commit crimes than native-born individuals?
    Ms. Vaughan. Well, I have reviewed a lot of the literature 
on this, and there is no evidence that immigrants are any more 
or less likely to commit crimes than anyone else. That is 
really not the relevant question. The question is what do we do 
with that fraction of the immigrant population that is 
committing crimes, that has committed crimes? How do we handle 
that? And that is where ICE needs the cooperation of law 
enforcement agencies because it is the local agencies who know 
who those problem individuals are.
    Mr. Goodlatte. Thank you very much. The Chair recognizes 
the gentleman from Illinois for his questions.
    Mr. Gutierrez. Thank you, Mr. Chairman. I want to start off 
by expressing my deepest sympathies to the family of Kathryn 
Steinle. Her death is a senseless tragedy. I have two daughters 
of my own, and as a father I cannot even begin to imagine the 
pain that her parents are going through. I am truly very sorry 
for your loss.
    I am often criticized by my supporters because I do not 
have a soft spot for immigrant criminals no matter how small or 
how old their violations. Many argue that old convictions on 
drunk driving should be forgiven when determining whether 
someone should get deported or not. After all, they have 
already served their time and paid the consequences doled out 
by the criminal justice system.
    I am not one of those people who argue for leniency for 
criminal immigrants. If you have serious criminal activity on 
your record, you have given up your USA privileges, and, 
generally speaking, I will not spend time or energy fighting 
for you. There are too many immigrants in this country who have 
never done anything wrong or never committed crimes, and I 
fight for them because they are part of what enriches America 
and what benefits all Americans.
    The tragedy in San Francisco has generated an important 
dialogue regarding our communities, the police officers we have 
entrusted to protect us, and our broken immigration system. The 
fact is, he should have never been released to be on our 
streets again. Deported five times. It seems to me they caught 
him and deported him, and he should have been deported once 
again.
    But there are serious questions about just how it is the 
local police should go about it. Nearly 300 jurisdictions have 
decided that they will not comply with a detainer from Homeland 
Security. The fact is the courts have said that they do not 
have to comply with those detainers, so what we need to figure 
out a way is to fix the broken immigration system that we have.
    We spend a lot of time talking about Mr. Lopez. We do not 
spend a lot of time talking about people who enter this country 
through other borders--JFK, LAX--and commit crimes in this 
country from all over the world. So if we are truly going to 
protect our Nation, then we need to have a holistic approach to 
our broken immigration system.
    It breaks my heart, Mr. Steinle, because I could have been 
walking on that pier, as I have, with both of my daughters, and 
I want to make sure that it does not happen. And I will 
continue to work with my colleagues on the other side of the 
aisle to fix our system, not in pieces and bits, but in its 
totality so that we can protect everybody in America, because 
indeed there are many people who want to fix our broken 
immigration system, and we need to do it in a holistic way.
    Had we done it, we would have secure communities. We would 
have more. We would have verification of employment. We would 
have so many other means. We would have the ability to flush 
out the bad people. Why? Because we would let the good people 
come forward so that they cannot hide among the good people, 
the good people who live in my congressional district.
    Now, I would like to take a moment, Mr. Chairman, to go 
back just for one moment. I know it might seem a little just, I 
do not know, unnecessary, but I would like to go back to a 
transcript at the end of the DHS hearing which you presided 
over, Mr. Gowdy, on July 14, 2015. I said, and this is the 
record, a transcript of the record of the July 14 hearing, 
which I stayed for the whole hearing, all 3 hours.
    Mr. Gowdy. Yes, sir, you did.
    [The information referred to follows:]

    <greek-l>direct quote from 7/14/15 full Committee 
        hearing deg.  Mr. Gutierrez. ``First, thank you, Mr. Gowdy, for 
        your excellent presiding over these hearings. . . . I just want 
        to just for the record, because I think it's very important''--
        listen to this--``I want to say to you, Mr. Gowdy, I share with 
        you the same anguish and pain, as I know the Secretary does and 
        every American, at the death of that woman, and that nobody has 
        come here to look for excuses or anything else. . . . I mean, 
        this is a career criminal we have on our hands. So I think we 
        should just try to figure out a way. . . . This man is not an 
        immigrant. Immigrants come here to work hard, sweat, and toil. 
        We should be warm in receiving. This man's a foreigner who came 
        here to cause damage. And let's fix our broken immigration 
        system so we can get rid of foreigners that come here to cause 
        damage and harm and welcome the immigrants.''

    Mr. Gutierrez. That was my statement. I would just like to 
put it in the record once again because apparently Ms. Vaughan 
did not read it or take the time to read it.
    Secondly, for the record, on the floor of the House of 
Representatives on July 9, and this is in the record, and I 
would like to put it in the record once again because 
apparently Ms. Vaughan does not read what actually is said in 
the English language that I have said. ``Now, the anti-
immigration wing of the Republican Party in this body and on 
the air say that Trump may have a point. After all, this woman 
was shot in cold blood by a Mexican immigrant in San Francisco 
just last week. Why was he not deported? Why was he not held in 
jail the last time? Why is it? And you actually hear this on 
Fox News. 'Why is President Obama letting Mexicans kill 
beautiful young American women?'
    As the father of two daughters about the age of Kate 
Steinle, the young woman who was shot and killed, I pray every 
night that no one of any racial or ethnic background ever does 
them harm, and I can only imagine the grief that her family is 
feeling. When we have felons in Federal custody or State or 
local custody with warrants for drug crimes who are deported 
multiple times and come back, this Congress has not done its 
job, unfairly leaving States and localities to cope with 
decades-old inaction on immigration criminal justice and the 
range of other issues. I have no sympathy for the man accused 
of this crime. Murderers should rot in hell.''
    Apparently people have decided to besmirch people's 
reputation and take their words and exploit the death of a 
beautiful young American woman, and I will not simply stand 
here and remain silent while that happens. You may not believe 
that we should have, Ms. Vaughan, a fixing of our broken 
immigration system, but do not exploit a young woman's death in 
order to receive a paycheck to put food on your table. You 
should find a more decent and practical way to go about earning 
your living.
    So, Mr. Steinle, I am so sorry about the death of your 
daughter. I assure you, I have a 36 year old and a 27 year old, 
and I love them dearly. I can never imagine losing them. And I 
will work to make sure that we fix this immigration system and 
that situations like the ones you suffer never happen again.
    That has been my record in the past in working with Members 
of the minority and the majority in this House, and I take 
great offense at anybody suggesting otherwise. Thank you so 
much.
    Mr. Gowdy [presiding]. The gentleman from Illinois yields 
back. The Chair would now recognize the gentleman from Texas, 
the past Chairman of this Committee, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Mr. Steinle, thank you 
for your heartfelt testimony. It is sad that we need to be here 
today. The tragic murder of a beautiful young woman, your 
daughter, I think could have been prevented.
    There are also thousands of other victims that did not need 
to be victims and would not have been victims if this 
Administration had enforced immigration laws. In my view, 
someone in this Administration probably should be arrested for 
negligent homicide or for any of another dozen crimes that are 
so frequently committed by illegal immigrants in this country 
who should not even be here.
    In the case of the sanctuary cities, in just 8 months last 
year, they released almost 9,000 individuals who had been 
either arrested or convicted of serious crimes. Two-thirds of 
those 9,000 individuals had either committed or been arrested 
of serious crimes. In just the few months since they were 
released, one-quarter have committed other crimes. How many 
others are going to commit more crimes in the coming months, if 
one-quarter have already been arrested for other crimes.
    This Administration last year released 30,000 criminal 
aliens; 2,000 under the Constitution they had to release, but 
28,000 were released voluntarily by this Administration. They 
committed the worst crimes imaginable, thousands of crimes. So, 
if anything, you have got an Administration setting an example 
for sanctuary cities rather than trying to prevent sanctuary 
cities from trying to escape enforcing immigration laws. 
Sanctuary cities have increased exponentially under this 
Administration for one good reason, that is the Administration 
has done nothing to encourage municipalities and other 
jurisdictions from becoming sanctuary areas.
    Many people claim that by being a sanctuary city or area or 
jurisdiction that that is somehow going to encourage illegal 
immigrants to report crimes. In my view, that is a specious 
argument, apocryphal. It is simply anecdotal, and I have never 
seen one shred of evidence that that is the case. It is just a 
simple assertion. And, in fact, every study I have seen, three 
out of three, have actually demonstrated just the opposite.
    One major study found no decline in crime reporting by 
Hispanics after the implementation of a local police program to 
screen offenders for immigration status and to refer illegal 
immigrants to ICE for removal. Another academic survey found 
that by far the most commonly mentioned reason or not reporting 
a crime was a language barrier followed by cultural 
differences, not fear of being turned over to immigration 
authorities. And a third study found that significantly more 
removals of criminal aliens did not affect patterns of crime 
reporting in immigrant communities. It would be nice if the 
media would just once cite any of these studies. We only hear 
the other side.
    My question to Ms. Vaughan, who has done some research on 
this subject, what do you think about the arguments made that 
somehow we are going to reduce crimes if we allow illegal 
immigrants to seek sanctuary and stay in this country in 
violation of current immigration laws? It seems to me it is 
very clear that more crimes are committed as a result of this 
policy, not fewer, but I would be interested in your opinion.
    Ms. Vaughan. This so-called ``chilling effect'' is a myth 
and has been refuted by the studies that you mentioned and by 
the words of immigrants themselves when the ones who have been 
victims of crimes tell researchers that it is because of 
language barriers. So access to law enforcement services is 
something that law enforcement agencies do legitimately need to 
focus on, but the way to do that is through community outreach 
programs, having personnel on the staff of these forces who 
speak the language of the community. Anonymous tip lines. Most 
law enforcement agencies have these anonymous tip lines. No one 
need be afraid of reporting a crime.
    ICE simply does not target witnesses or victims of crime 
for immigration enforcement. And I wish that the advocacy 
organizations that claim to speak for immigrants, who go around 
telling people that immigrants have to be afraid to report 
crimes because of cooperation with ICE should be telling them 
that victims and witnesses are not subjects for immigration 
enforcement, and that that would be a much more constructive 
message that would help the immigrant community.
    Mr. Smith. Thank you, Ms. Vaughan. Mr. Chairman, I simply 
do not understand how anyone could oppose enforcing current 
immigration laws. These unnecessary victims are not Republicans 
and not Democrats. They are innocent Americans. And immigration 
laws should be enforced by everyone in America, and yield back.
    Mr. Gowdy. The Chair thanks the former Chairman of the 
Committee and recognizes the gentlelady from Texas, Ms. Jackson 
Lee.
    Ms. Jackson Lee. I thank the Chairman and the Ranking 
Member. Mr. Steinle, I add, again, as I know all Members have 
done, sympathy to you and your family. The sound of the violent 
act against your daughter simply penetrated around this Nation 
and beyond. I would also indicate, Chief Jones, that any time 
we lose someone in the line of duty, we, too, feel that pain. 
And frankly, we should try to find the solutions that we need 
to find.
    So let me just offer a few thoughts in the instance of the 
facts in San Francisco, but I think it is important to join in 
my colleague from Texas and say that the laws that are on the 
books that are legal should be enforced as they relate to 
immigration issues in this country.
    Those of us who support comprehensive immigration reform in 
no way view that reform as coddling criminals. They stand aside 
from the population of families, of students, of workers, who 
have come in this country to do good and not to do harm. And I 
think that when we get into a process of viewing one group of 
wanting not to abide by the immigration laws and another group 
as, then it is a misrepresentation of many of the American 
people who support our perspective.
    And I might just add one thought. When you have deferred 
adjudication, that is actually a legal use that can be utilized 
under the term ``prosecutorial discretion,'' which ICE has and 
a number of other agencies have. It is not in this instance 
that I think that prosecutorial discretion played out in any 
way. It did when we speak of these young DREAMers that have 
been allowed to stay and go to school.
    But what I do want to make note of is that I wish the clock 
could have been turned back on this terrible tragedy, and just 
make mention that the individual in question in your daughter's 
tragic circumstances was in the Federal Bureau of Prisons. They 
did hold this individual, and in March 2015 transferred him to 
the custody of the San Francisco's sheriff's office on a 20-
year-old warrant for a marijuana charge with the expectation 
that the district attorney would pursue. We wish this had not 
happened, but what did not happen, which was a simple act, was 
a phone regarding Mr. Lopez-Sanchez's statement or status.
    This bill dealing with the sanctuary cities and removing 
all opportunity for such cities, and frankly why do we not all 
agree that that name connotes a problem for many, because it 
suggests that you are giving sanctuary to everybody, has a 
right to stay under that umbrella, crooks, and criminals, and 
bad actors. And I want you to know that is absolutely not the 
case. It was utilized in a time when people came and did not 
speak English, and they were afraid of harm. And the only way 
that law enforcement officers could do their effective job was 
to be able to find out who did it.
    So I want to ask--yes. I am not seeing the name, and I am 
looking for my list. I always like to call the name, but I will 
call it in a moment. But, yes, did I characterize if we use a 
different term other than ``sanctuary.'' We are not giving 
sanctuary to crooks and criminals, are we?
    Chief Biehl. I am sorry, Congresswoman. I cannot quite hear 
your question.
    Ms. Jackson Lee. Okay. With respect to sanctuary cities, we 
are not attempting to give, and I do not particularly hold to 
the name. It comes out of a religious basis of sanctuary, and I 
appreciate my faith community who started out trying to help 
people who are in need.
    My question to you, in the law enforcement, it is not a 
refuge for crooks and criminals. Is that correct? That is not 
the definition of ``sanctuary city.''
    Chief Biehl. I am not aware actually what the exact 
definition for ``sanctuary cities.'' I think the terminology is 
used as if it is understood what it actually means. Not being a 
sanctuary community, I cannot really speak to the intent of 
those who have passed laws and/or other policies to, in fact, 
be a sanctuary city.
    Ms. Jackson Lee. Well, let me just without not being one, 
however, an overall position, you do not perceive that anyone 
is trying to protect anyone that is a criminal with an 
established criminal record. You would not perceive that to be 
the case.
    Mr. Gowdy. The gentlelady is out of time, but the chief may 
answer.
    Chief Biehl. I am sorry.
    Mr. Gowdy. The gentlelady is out of time, but you may 
answer her question.
    Chief Biehl. I cannot think of anyone in professional law 
enforcement that that would ever be their intent in adopting 
any policy that may be considered a sanctuary city.
    Ms. Jackson Lee. I thank the Chairman for allowing him to 
answer, and I have a number of statements from law enforcement 
that oppose H.R. 3009, Mr. Chairman: The National League of 
Cities and the National Conference of Mayors; the Major County 
Sheriffs' Association; and the Fraternal Order of Police. I ask 
that the statements be put into the record.****
---------------------------------------------------------------------------
    ****Note: The material referred to was previously submitted. See 
pages 18, 20, and 27.
---------------------------------------------------------------------------
    Mr. Gowdy. Without objection.
    Mr. Gowdy. The Chair would now recognize the gentleman from 
Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman. I thank the witnesses 
for your testimony today, and I continue to be amazed at the 
composure that you are able to bring to this issue, Mr. 
Steinle.
    I wanted to inform you that some of us have been doing some 
things to try to move this Congress and this country in the 
right direction. I look back on testimony at this same table 
about the first year I came here in Congress, which would be 
around 2003 or 2004. The witnesses were testifying then of the 
number of people who died trying to get across the Arizona 
desert.
    I asked a witness who was seated in your seat, Chief 
Biehl-- actually I asked each of the witnesses--he had an 
answer. I said, do you know how many Americans died at the 
hands of those who did make it into the United States. And his 
answer to me on September 11th was fresher in our minds than it 
is today. He said, I do not know the number, but I can tell you 
it would be in multiples of the victims of September 11.
    And at that point, I began the effort to get a GAO study, 
which Ms. Lofgren cooperated with me on. In April of 2005 we 
got a study out. It was not quite apples to apples because we 
do not keep records well enough to have it exactly apples to 
apples. We refreshed that study again in March of 2011. I 
continued to bring amendments that cut off funding to sanctuary 
cities.
    I never believed that there should be a separation between 
the levels of law enforcement in this country. I grew up in a 
law enforcement family, and I understand the interrelationships 
that are part of the testimony we have heard here today.
    I wrote an op-ed last year dated August 26. It is in the 
National Review: ``The ACLU Reverses the Rule of Law.'' In it I 
objected to the ICE detainer decision. What has been missing 
here is that then acting director of ICE, Dan Ragsdale, issued 
a statement, a letter to the political jurisdictions on 
February 25, 2014, that said that ICE detainers are not 
mandatory as a matter of law. And so, this is initiated not by 
ICE reacting to the ACLU's threat of lawsuits. That letter from 
ICE, contributed to this tragedy that we have here before us. 
And they changed the word ``shall'' to now it is a suggestion.
    The last sentence in that op-ed says, as I wrote, ``If we 
bow to the outrageous demand of the ACLU and ignore detainer 
orders, the price will be paid by thousands of crime victims 
who would otherwise have been protected by law.'' I think we 
have clearly heard today the effect of that, and we have heard 
it from expert testimony and very painful experiences.
    Mr. Steinle, on the day that I saw the news of your 
daughter's death, long before I knew it would be a national 
story, I sent out a tweet, and it is dated July 3. And it says 
this, ``100 percent preventable crime. Just enforce the law. 
This will make you cry, too.'' And it happens every day. That 
was the Breitbart article from that day, and I sent out a 
subsequent tweet the following day, and it says this: ``This 
story happens every day in the U.S.''
    And as of 2011, 25,064 criminal aliens were arrested for 
homicide in the United States. That is as of the end of 2010. 
How many since then? How big is that number? I look at the 
report and I do the math. That number comes to perhaps 48,000. 
I look at the crimes that have been committed by criminal 
aliens. This report, coupled with a subsequent report, brings 
us to a number in the area of 7,200,000 crimes for perhaps less 
than around half of that many as crime victims.
    The devastation in this country because we refuse to 
enforce the law is breathtaking when you look at the 
statistics, and it is a tragedy that causes my heart to cry 
when I see what happened. And we knew it. This Congress knew 
it. I saw it 12 or 13 years ago. Many of us have seen it, but 
because of political desires people that gain a political 
advantage from having the political support, they are pandering 
to and catering to people that they know are lawbreakers. And 
this tragedy was 100 percent preventable.
    I feel like I ought to ask a question, so I want to say, 
Sheriff Jones, I think your testimony has been very specific 
and well informed. And I would ask if you could comment on what 
I said about ICE detainer orders.
    Sheriff Jones. Yeah, absolutely. First of all, it is 
important to note that even under the Priority Enforcement 
Program prior removal felonies, any felon conviction, as long 
it is not aggravated, extensive gang activity, and any 
misdemeanor convictions will not get you into the first 
priority. But even if you were in the first priority, ICE 
detainers are not working.
    It is naive to believe, to assert, that for the most 
offensive crimes that we are able to hold the person until ICE 
can get down. Even if we notify them, if Ms. Steinle's murderer 
were somehow released from court today, they would not hold 
them 1 minute for them to get out of custody. I cannot even 
honor an ICE detainer for the person that killed my officer 
that is currently in custody. If he were to somehow get 
released or charges dismissed, he would get out before ICE 
would ever come down to the jail.
    By ICE's own numbers, their in-custody arrests are down 95 
percent over a year ago. That is 95 percent. That is more than 
just folks that are falling in the first priority. That is 
almost every single person escaping a consequence for being in 
this country illegally or whatever crimes they may have 
committed.
    Mr. King. Thank you, Sheriff. I would just say to the 
Chairman that the families that have suffered this kind of 
tragedy that it was 100 percent preventable are becoming the 
equivalent of gold star families here in this country. And I 
want to honor you and thank you. And I yield back.
    Mr. Gowdy. The gentleman yields back. The Chair would now 
recognize the gentleman from Colorado, the former district 
attorney, Mr. Buck.
    Mr. Buck. Thank you, Mr. Chairman. Sheriff Jones, have long 
have you been with the sheriff's office? I heard earlier, but I 
forgot.
    Sheriff Jones. Since 1989.
    Mr. Buck. Okay. And in your office or in your jail, I take 
it that you implement a program with ICE.
    Sheriff Jones. We do. We cooperate with ICE to the extent 
we are able to.
    Mr. Buck. And that program, at least when I was in local 
law enforcement, used to be known as the 297 Program or 287G 
Program?
    Sheriff Jones. That is correct.
    Mr. Buck. And it requires you to send some of your deputies 
to be trained with ICE. Is that my understanding?
    Sheriff Jones. There is a training component. I am not 
certain as I sit here today what it is. We have a large jail. 
We are right next to a Federal courthouse, and so we have a 
pretty handy ICE presence in our jail. They are able to be in 
our jail unlike many jails.
    Mr. Buck. And when I was district attorney, I inquired of 
ICE how they found out about individuals' nationality and made 
their determination. And I was concerned with profiling issues 
because they were raised to me. My understanding is that ICE 
asks neutral questions to begin their questioning. They will 
ask something like, where were you born, and they will ask that 
of everyone that they interview in custody. Is that your 
understanding?
    Sheriff Jones. That is correct, but because of Secure 
Communities and its progeny, they will already have an 
indication many times if there is a fingerprint match, if 
someone is in the country illegally.
    Mr. Buck. And if they do not have that indication----
    Sheriff Jones. Right.
    Mr. Buck [continuing]. They would still ask the neutral 
question of everyone.
    Sheriff Jones. Right.
    Mr. Buck. They will not just ask people who speak Spanish 
or people who speak a foreign language. They will ask that 
question of everyone that is in custody taken in that day, for 
example.
    Sheriff Jones. That is correct, or folks that have self-
indicated that they were born outside of the United States or 
are here illegally.
    Mr. Buck. Okay. And I have seen in my experience changes in 
the morale of the ICE agents that are working there. Many of 
the ICE agents that I deal with feel like they have been 
handcuffed by this Administration recently. Do you have that 
feeling also with the ICE agents that you work with?
    Sheriff Jones. Absolutely I do. The line level officers in 
both ICE and us have the same desire, and that is to keep the 
community safe. They took an oath. They have a mission. They 
are not being allowed to carry out that mission. That morale 
issue was discussed and addressed by the Administration with 
the raise, but that is not what is giving the ICE at the line 
level poor morale.
    Mr. Buck. Can you pay a law enforcement officer enough to 
ignore crime?
    Sheriff Jones. No.
    Mr. Buck. We do it. I did it or we do it for other reasons. 
We do it because we feel like we make our communities safer. We 
do it because we want to help people around us. We do not do it 
for another $1,000 a year in pay. Is that fair to say?
    Sheriff Jones. Yes. I said earlier, it is a calling. We do 
not choose law enforcement. It chooses us.
    Mr. Buck. And you have mentioned a statistic that shows 
decreased crime, but it is also your sense that there is 
decreased enforcement as a result of changes in Administration 
policy.
    Sheriff Jones. There is undoubtedly less enforcement on 
immigration issues and certainly detainers as a result of----
    Mr. Buck. And that is what you hear anecdotally from the 
people that you deal with in ICE.
    Sheriff Jones. Oh, absolutely.
    Mr. Buck. Chief Biehl, as part of your job as a--oh, I am 
sorry. I wanted to mention something also, Sheriff Jones. I 
really appreciate you drawing the distinction between sheriffs 
and chiefs, and it I something that I have noticed. Chiefs are 
appointed by mayors typically or city councils or 
administrators who work for mayors and city councils in urban 
areas. And they tend to be more liberal, and they tend to have 
more liberal policies. Sheriffs run for election. They deal 
with individuals. They have a sense of the community that far 
exceeds, at least in my experience, that of a police chief.
    We have had so many times in the Colorado legislature bills 
that have been supported by sheriffs and opposed by chiefs, 
bill that have been supported by chiefs and opposed by 
sheriffs. Two very different spokesmen or women for law 
enforcement, and I appreciate you drawing that distinction.
    Chief Biehl, I want to ask you really quickly, do you have 
a task force, for example, with DEA when you deal with drug 
cases?
    Chief Biehl. Absolutely.
    Mr. Buck. And in those task forces, you gather intelligence 
and share that intelligence with DEA.
    Chief Biehl. That is correct. We actually are on the DEA 
task force.
    Mr. Buck. Okay. And the same is true if you know of a large 
gun running organization, national gun running, you would share 
information with ATF.
    Chief Biehl. That is correct.
    Mr. Buck. And I take it if you heard of some international 
terrorist organization, you would share information with the 
FBI.
    Chief Biehl. We are a member of the FBI/JTTF, Joint 
Terrorism Task Force.
    Mr. Buck. And but when your officer shows up at a domestic 
violence situation, what you are telling me is they do not make 
inquiries about nationality, and they would not share 
information if they had a suspicion about someone being in this 
country illegally.
    Chief Biehl. For the victim, absolutely not. In fact, what 
we do is try to work with victims to have an advocate work with 
them and see if they are eligible for a U visa application. So 
that is one of the community partnerships we have. If the 
person is a suspect, it would really depend on the 
circumstances if the insistence of the immigration would be 
helpful in our investigation. Did it bring something additional 
to the table that will help us in this case or not? We have the 
authority to act on that case and take that person into 
custody. When they get to jail, they will be screened through 
ICE.
    Mr. Buck. I am out of time, but you distinguish between the 
various types of crime and how you interact with the Federal 
Government.
    Chief Biehl. Correct. Correct.
    Mr. Buck. Thank you.
    Mr. Gowdy. The gentleman from Colorado yields back. The 
Chair will now recognize the gentleman from Texas, the former 
U.S. attorney, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman. Mr. Steinle, as the 
father of two daughters, I cannot begin to comprehend the grief 
that you have endured over the last 3 weeks. And I would like 
to join all of my colleagues, many of them, in expressing my 
deepest condolences to you and to your entire family.
    Can I ask you whether in the last 3 weeks President Obama 
has expressed his condolences to you?
    Mr. Steinle. I did not hear the question.
    Mr. Ratcliffe. Can I ask you if in the last 3 weeks 
President Obama has expressed his condolences to you or your 
family?
    Mr. Steinle. [Nonverbal negative response.]
    Mr. Ratcliffe. Well, I am very sorry to hear that. When 
there have been other very public deaths in this country, like 
Michael Brown and Trayvon Martin and Freddie Gray, the 
President has expressed his condolences to the family. I would 
have expected him to do that here. He did more than express his 
condolences in those cases. He had a lot to say about those 
circumstances I think because they tied into policies that he 
cared about like gun control and alleged police profiling. And 
yet when one of his policies with respect to immigration 
enforcement is at the root of a problem here that we are all 
discussing today, we do not hear anything from him, and you did 
not hear anything from him.
    About the kindest thing I can say about that is that is 
incredibly disheartening and troubling to me because I very 
much believe that the loss that you have experienced is 
unacceptable if for no other reason that it was entirely 
preventable had the immigration laws in our country been 
enforced. And this Administration has, frankly, refused to 
uphold the law, and its inaction has emboldened cities across 
the country like San Francisco to ignore and, in some cases, 
actually obstruct enforcement of our immigration laws. And we 
all know that the status quo is not working, and since the 
Administration is not going to apparently do anything about 
that, Congress has to step in and act.
    You know, today the House is expected to vote on a bill 
that would deny certain Federal funds to sanctuary cities, and 
I do think that is a good first step. I agree with Ms. Vaughan 
that that is all it is, that it is just a good first step and 
that we certainly have to do more, and that we have to have the 
courage and conviction not just to do more, but to do what is 
right.
    So, Ms. Vaughan, let me ask you a question. In your 
testimony, you noted that detainers have been used for decades 
and have been viewed by law enforcement as mandatory rather 
than just optional. In your opinion, what do you think is at 
the root of this dramatic departure from prior interpretations?
    Ms. Vaughan. I believe that this whole series of events of 
more and more jurisdictions becoming sanctuaries was set off by 
the policy change at ICE to suddenly declare that detainers 
were optional. In this letter that Mr. King referred to from 
Dan Ragsdale to just suddenly declare that they were optional, 
not mandatory, with no legal foundation whatsoever that to my 
knowledge has ever been made public as to what, you know, legal 
reasoning they had for changing that policy.
    But once that was done, that then provided legal cover for 
all of these other jurisdictions around the country to change 
their policies to stop complying with the detainers. And it 
also provided an opening for groups like the ACLU to threaten 
litigation against those sheriffs who are complying with 
detainers. And I think that is why it is very important that 
language such as that in the Davis-Oliver Act be included in 
any effort to address the sanctuaries to protect those law 
enforcement agencies that are doing the right thing and 
complying with all detainers all the time so that they are not 
going to be held responsible.
    Knowing that ICE's policy nowadays is not to assist them in 
litigation, even if it is ICE's mistake, we have to give them 
cover, and protection, and qualified immunity to do the right 
thing in these cases in complying with detainers.
    Mr. Ratcliffe. Thank you, Ms. Vaughan, and I appreciate you 
being here. I found your testimony earlier compelling. Sheriff 
Jones, I found yours compelling as well, and I would like to 
give you an opportunity because you talked about this same 
issue about detainers being interpreted as mandatory previously 
rather than just requests. And I would like to ask you the same 
question about whether you have an opinion about what has 
caused this dramatic shift.
    Mr. Gowdy. The gentleman is out of time, Sheriff, but you 
may answer the gentleman's question.
    Sheriff Jones. Thank you, Mr. Chair. Clearly it is policy 
differences, and obviously as the Member pointed out, these 
policy and the preferences came about long before the decision 
in Clackamas County, Oregon. That was just a catalyst and 
vehicle for them to make that a nationwide policy shift.
    You have to understand that the DHS assistant secretary 
over State and local law enforcement is Heather Fong. She is 
the former police chief of San Francisco. So not saying 
anything about her competence as police chief or in the 
position she currently holds, but that does give you some 
insight into the political will and mindset of this 
Administration.
    Mr. Ratcliffe. Thank you. I appreciate you all being here, 
and I yield back, Mr. Chairman.
    Mr. Gowdy. The Chair thanks the former U.S. attorney, and 
recognizes the gentleman from Michigan, Mr. Trott.
    Mr. Trott. I thank the Chair for organizing this hearing 
today, and all the witnesses for sharing their insight. I also 
want to thank my good friend from Texas for his question. Mr. 
Steinle, I was going to ask you if the President had reached 
out to you, but I decided not to do that because I assumed 
that, of course, he had done that. So I am sorry that has not 
happened.
    I thank you for your courage in being here today, and I, 
too, hope this is just a beginning. And my question is to Ms. 
Vaughan. One of my concerns is I am going to support H.R. 3009. 
I am going to vote for it this afternoon. But it really has to 
be just the beginning because it targets about $800 million of 
money for law enforcement.
    And my concern, and I would like you to speak to it, is it 
has to be just a first step because many times law enforcement, 
sheriffs, and police chiefs are following the directive of a 
city council, or a mayor, or a county commission. And I think 
we have to go further upstream and withhold TIGER grant money 
for road funding for sanctuary cities that decide to ignore 
Federal law. I think we have to make the repercussions of a 
sanctuary city deciding to ignore Federal law much more severe 
than H.R. 3009. Can you give you any suggestions or thoughts in 
that regard?
    Ms. Vaughan. Well, again, I think the language that is in 
the Davis-Oliver Act is very comprehensive in addressing this 
problem. I do agree with you that, you know, money talks. In 
most cases, sanctuary policies are not something that law 
enforcement agencies ask for. They are imposed on them usually 
by political elected officials. And so, but money is a way to 
target them that we can come up with objective ways to define 
what a sanctuary is. And I think it should be a jurisdiction 
that does not comply with all detainers all the time for all 
types of people who are removable, whether they have committed 
serious crimes or not.
    And I do think that the policies of the Obama 
administration in enabling sanctuary jurisdictions and greatly 
restricting what ICE agents can do, despite the plain language 
of the law, also ought to be given attention through 
legislation from Congress because we know that the 
Administration is not going to make an effort. They have said 
as much. They are not going to address this on their own. And 
so, Congress needs to reassert its constitutional authority 
over these matters.
    Mr. Trott. Thank you. Chief Biehl, during your testimony 
you commented that, you know, resources are finite. It is 
difficult for police departments to balance the different 
needs, and the Federal immigration laws on some level are a 
distraction perhaps in balancing all the different demands on 
your police officers. That is true of so many things today in 
State and Federal Government, so it is not unique to whether we 
should enforce our immigration laws. Do you agree with that?
    Chief Biehl. I think it raises the issue of where we spend 
our enforcement resources always. How do we prioritize what we 
do? In fact, that is what every police chief and every sheriff 
across this country does. That is what the Federal 
administration is attempting to do. I would believe as it 
relates to immigration and enforcement policy to try to do 
everything, we do nothing well. So we focus and are very 
strategic in how we deploy resources. That is how we are 
effective.
    Mr. Trott. But if we boil it down where we are talking 
about with respect to today's tragedy that led to this hearing 
is a phone call, right?
    Chief Biehl. I think I have already testified to the effect 
that the notification should have been made. In fact, I think 
we need to move just a little back upstream that the Federal 
Government had the capability to act on that deportation 
without ever involving San Francisco authorities. And I have 
not heard that comment much today. The authority existed. The 
capability and ability to take action existed, and somehow that 
is not being recognized I think.
    Mr. Trott. In your testimony you kind of suggested that 
sanctuary cities maybe are helpful insofar as unlawful 
immigrants are not afraid to report crimes. Ms. Vaughan 
disagrees with that, suggests it is a myth. Do you want to 
comment on that?
    Chief Biehl. I think we just see this differently. Mine is 
based on my actual experience with my city, so I yield to my 
experience.
    Mr. Trott. Sheriff Jones, the President's policy is just to 
seek custody of folks that have been convicted of crimes, not 
charged. Do you want to comment on that?
    Sheriff Jones. Well, I can say that the only vehicle for 
that to happen, the only vehicle for the Federal Government or 
ICE to be notified of that is the detainer process. And as I 
have tried to illustrate, the detainer process is not working. 
We are not able to honor ICE detainers for 1 second after the 
local charges are cleared.
    Now, if someone is sentenced to local time, doing time in 
jail, then ICE can have a pretty decent idea, relatively 
accurate idea of when they are getting out. And for those folks 
it might still be effective. But for the 58,000 people that I 
book in my jail every year that overwhelmingly mostly get out 
on their own recognizance, bail perhaps, they are able to bail, 
they get released from court, that happens with no notice or 
warning to ICE, and they do not have the ability to run down to 
the jail before I have to release them.
    Mr. Trott. Thank you, Sheriff. And, Mr. Steinle, I will 
close with this. I am out of time. But the head of Amtrak 
apparently could not find time a few months back after the 
tragedy in Philadelphia to call the eight families that were 
affected by that. So apparently there is a pattern and practice 
here in Washington of people not being considerate of the 
tragedies that affect our citizens.
    Thank you. I yield back.
    Mr. Gowdy. The gentleman from Michigan yields back. The 
Chair recognizes himself for 5 minutes.
    Mr. Steinle, I want to thank you for beautifully capturing 
the essence of your daughter was. And I have read everything 
that I can get my hands on, and I last night watched the clips 
of various family members describing your daughter, and she is 
precisely the kind of person that our country desperately 
needs. So I want to thank you for sharing her with us today.
    Mr. Steinle. If I may, I would like to recognize my sisters 
here in grief that supported us during this. They have been 
there, done that, and we are going to carry this forward, and 
hopefully some good will come from Kate's death. Thank you.
    Mr. Gowdy. Yes, sir, which is a perfect segue. I was going 
to thank Chief Biehl and Sheriff Jones and ask that they 
specifically tell the women and men that work with them how 
grateful all of us for folks who go into that profession and 
that calling. And I suspect that both the chief, and the 
sheriff, and the women and men that work with them would tell 
you that there are lots of really hard parts of being in law 
enforcement. The crime scene photos never leave your head. You 
never get them out. The crimes scenes themselves you never get 
out.
    But the hardest part for most law enforcement officers that 
I have talked to is having to talk to the families, like the 
four ladies sitting right behind you because they have got 
really good questions. Why? Why did this happen? How did this 
happen? And those questions go all the way up to the 
theological. Those are not just law enforcement questions. They 
are life altering, lifelong questions. So tell the folks that 
you work with how grateful we are.
    Sheriff, this is something that I am struggling to 
understand. ICE had probable cause for Mr. Francisco Lopez-
Sanchez, correct? I mean, he is a five-time convicted illegal 
entrant. I think even some of the members of this panel could 
have won that case in court. So they had probable cause.
    Sheriff Jones. That is my understanding.
    Mr. Gowdy. Why not a warrant? Why a detainer?
    Sheriff Jones. You know, I would not claim to be an insider 
into the dynamics. I have talked to some of my friends in ICE 
about that particular case. There were certainly failures, but 
it is an overarching policy-level decision to not challenge or 
enforce the existing immigration laws or challenge contrary 
laws that led, at least in part, to the release of this 
suspect.
    Mr. Gowdy. But surely even sanctuary cities like San 
Francisco would have to honor a Federal warrant.
    Sheriff Jones. Clearly.
    Mr. Gowdy. Because the Bureau of Prisons honored a local 
warrant.
    Sheriff Jones. Yes, and we had this discussion about why do 
you not just create the detainer process into somewhat of a 
probable cause declaration and have them reviewed by a 
magistrate. It is case load prohibitive, but there are 93 
Federal districts in this country, including three territorial 
district courts. And if we were to supply one additional 
magistrate to each of those districts, I am sure they could 
handle the workload of reviewing the probable cause detainer 
declarations. These things are easily fixable. There just has 
to be a desire and the political will to be able to do that.
    Mr. Gowdy. Well, I want to give you one other way to fix 
it, Chief, and I will go to you for this one. San Francisco 
wound up dismissing that warrant, correct?
    Chief Biehl. And I would have expected that. Quite honestly 
in my experience, I would be shocked if that case would have 
gone forward.
    Mr. Gowdy. But they could have dismissed it while he was 
halfway through his Federal prison sentence.
    Chief Biehl. Absolutely.
    Mr. Gowdy. They could have dismissed it when he had a month 
to go on his Federal prison sentence.
    Chief Biehl. That is correct.
    Mr. Gowdy. They could have dismissed it at any point in his 
Federal prison sentence. Therefore, he never would have been 
returned to the City of San Francisco.
    Chief Biehl. That is a fact.
    Mr. Gowdy. And if I were Mr. Steinle, those are some of the 
question that I probably would be asking is you knew you were 
going to dismiss this warrant. You knew that. Hell, I am not 
even sure drugs are still illegal in San Francisco. So you knew 
that case was not going to be prosecuted. Why did you wait 
until he was in your custody to dismiss it, leading to this 
result?
    All right. I want to move to one other thing. To both my 
law enforcement officers, have you ever noticed throughout the 
pendency of your careers that folks start with misdemeanors, 
and then they kind of work their way up to aggravated 
misdemeanors, and then they get into felonies. Rarely do you go 
from zero to 100 miles an hour. Rarely. And when you do go from 
zero to 100 miles an hour and commit a murder or a sexual 
assault or a kidnapping, you are in jail. If you have got a 
decent prosecutor and a halfway decent case, those folks are 
already locked up.
    So since we accept the fact that you do not go from zero to 
100, I think we are missing the boat if we focus solely on 
felonies when it comes to background checks for folks who want 
to be in this country. Look, all misdemeanors are not the same. 
Speeding is a violation. DUI is worse. Recidivist DUIs are 
worse. Property damage DUI is even worse. Personal injury DUI 
is even worse. I get all that. But this obsession that we have 
with only felons, we can only deport felons. Sheriff, has that 
been your experience, that people who commit misdemeanors 
always learn their lessons and never graduate?
    Sheriff Jones. Clearly some do, but the best predictor of 
future behavior is past behavior. And I think there are studies 
that will demonstrate that generally is an escalation of 
criminality, especially when you do not have the consequences 
to try and deter the behavior. And it is not just felonies that 
are getting deported. It is only aggravated felonies. So there 
are many felony convictions that escape scrutiny whatsoever, 
even under the highest priority of the Priority Enforcement 
Program.
    Mr. Gowdy. All right. I am out of time, but I want to ask 
one final question because this deals with broader issues of 
immigration. I want to assume for the sake of argument that 
there are 11 million undocumented folks in the country. Let us 
assume that. And I do not know what the percentage is. Ms. 
Vaughan, maybe you do. Of that 11 million, what percentage have 
either felony or what we could consider to be serious 
misdemeanor criminal histories?
    Ms. Vaughan. I do not know the exact answer to that. ICE 
estimates that there are more than 2 million criminal aliens in 
the United States.
    Mr. Gowdy. All right. Let us do this.
    Ms. Vaughan. Twenty-nine million are removable because some 
of them have green cards.
    Mr. Gowdy. Well, let us do this. Just for the sake of 
conservatism, let us cut that in half. Let us say it is a 
million. Let us err on the side of being conservative. What is 
the Administration's plan for removing those 1 million? To wait 
until they reoffend? Does anyone know the plan?
    [No response.]
    Mr. Gowdy. This is not a rhetorical question. I am honestly 
asking if the strategy is to wait until those 1 million 
reoffend. Somebody is going to be apologizing to a whole lot of 
moms and dads. Is there another strategy that either of the law 
enforcement professionals or Ms. Vaughan, is there a strategy 
other than simply waiting for that 1 million to reoffend?
    If you cannot ask about status, if you cannot place a 
detainer, how are we going to identify that universe, however 
small it may be? If you are Mr. Steinle, it does not matter if 
it is one. What is our plan to identify that universe before 
they reoffend? Not all at once.
    Chief Biehl. Mr. Chairman, I just would suggest that the 
Federal Government, ICE, certainly should have an idea based on 
their database, which is not shared with local law enforcement, 
of who those individuals are and who poses significant risk. 
And they have the ability to take action, and if they need the 
assistance of local law enforcement, they certainly can request 
that.
    Mr. Gowdy. When you say ``take action,'' you mean wait for 
them to do something else wrong where they interact with law 
enforcement?
    Chief Biehl. They have the ability to take proactive action 
just like any police officer does.
    Mr. Gowdy. But there are less ICE agents than there are 
officers in certain big cities in the United States. There are 
5,000. All right. I am out of time. I cannot ask about U visas. 
I will close in just a second.
    I want to recognize my colleague from California for any 
closing remarks she may have.
    Ms. Lofgren. Thank you, Mr. Chairman. I first would like to 
ask unanimous consent to put in the record the priorities for 
removal.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Ms. Lofgren. There have been several comments made her that 
are just not correct. The priorities for removal are Priority 
1A, B, C, D, and E, and Priority 2A and B. And what that is, 
terrorism, gang, any felony as well as any aggravated felony. 
Under Priority 2, and this is equal with 1, three or more 
misdemeanors other than traffic, and significant misdemeanors, 
which includes a single DUI, no matter when that offense was 
included. Those are all priorities for removal.
    I would just note that no system is perfect, and clearly 
there was a failure here in San Francisco. I mean, there is no 
question about that. I think your question about the warrant is 
a good one and one we ought to explore. One of the reasons I 
think every jurisdiction has a multiplicity of bench warrants 
that have been issues, and there generally is no process for 
going back and taking a look at old bench warrants to see 
whether they ought to be dismissed. Maybe that is part of the 
answer.
    On the other hand, if the bench warrant was not for a drug 
offense but for a rape, you would not want that dismissed. So, 
you know, we need to sort through with some granularity to make 
sure that we are actually solving a problem and not creating 
new ones.
    And I would just close with saying that although the system 
is far from perfect, it is often the case that individuals who 
have either no status or they gain status who commit an offense 
are the subject of enforcement action. In fat, I have met a 
number of people who are legal permanent residents of the 
United States who have lost their legal permanent residence 
because they have been convicted of a crime that allows them to 
be removed. So I am not saying it is perfect, but it is far 
from rare.
    I think that as we move forward in this, we have plenty of 
questions and an opportunity to work together to make sure that 
this whole system works better for the safety of our community. 
And I thank you, Mr. Chairman, for recognizing me, and I yield 
back.
    Mr. Gowdy. The gentlelady yields back. And with respect to 
the warrants, the gentlelady is exactly right. I do want them 
enforced, particularly if there is a victim involved. But it is 
really easy. You just tell the prosecutor and the local law 
enforcement agency you have X amount of time with which to 
resolve this warrant. You can try it. You can plead it. You can 
dismiss it. That is up to you. But you are going to return this 
person back to the Agency or entity from which they came. You 
are not going to release them. That is an easy fix. Give 
California, give San Francisco 30 days. It is 20 years old. 
Good luck finding the witnesses. My concern more is that all of 
that could have been done while that person was serving a 
prison sentence. All of it could have been done.
    So let me just in closing, Chief Biehl, Sheriff Jones, I 
want to tell you, I think you have got folks on task forces. I 
do not know if you have folks on task forces that are not. They 
are probably Federal task forces. They may be RICO. They may be 
OCDETF. Those are pretty complex matters, too, if you have ever 
tried to unlock a Federal RICO case. Hell, for that matter 
State DUI laws are 16 pages long, and your guys are smart 
enough to do DUI laws. So I reject the notion that somehow 
immigration law is too complex for State and local law 
enforcement.
    But I want to end the same way I started, Mr. Steinle, by 
thanking you for your courage. For those of us that are parents 
or, frankly, even if you are not a parent, I could not do what 
you have done. I could not have the grace. I could not do it. 
So thank you.
    Mr. Steinle. Thank you.
    Mr. Gowdy. Ms. Vaughan, thank you. And, Sheriff Jones and 
Chief Biehl, if you would be kind enough to let the women and 
men that work with you know how grateful we are for their 
service.
    With that, Members have 5 legislative days to put whatever 
they want in the record and with that, we are adjourned.
    [Whereupon, at 12:07 p.m., the Subcommittee was adjourned.]

                                 [all]
</pre></body></html>
